UNITED STATES MARSHALS SERVICE

 ANNUAL FINANCIAL STATEMENTS

       FISCAL YEAR 2012

         U.S. Department of Justice

       Office of the Inspector General

                Audit Division


            Audit Report 13-14

              January 2013

           UNITED STATES MARSHALS SERVICE

            ANNUAL FINANCIAL STATEMENTS

                  FISCAL YEAR 2012


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statements of the
United States Marshals Service (USMS) for the fiscal years (FY) ended
September 30, 2012, and September 30, 2011. Under the direction of the
Office of the Inspector General (OIG), Cotton & Company LLP performed the
USMS’s audit in accordance with auditing standards generally accepted in
the United States of America. The audit resulted in an unqualified opinion
on the FY 2012 financial statements. An unqualified opinion means that the
financial statements present fairly, in all material respects, the financial
position and the results of the entity’s operations in conformity with
U.S. generally accepted accounting principles. For FY 2011, the USMS also
received an unqualified opinion on its financial statements (OIG Report
No. 12-15).

       Cotton & Company LLP also issued reports on internal control over
financial reporting and on compliance and other matters. The auditors
identified one significant deficiency in the FY 2012 Independent Auditors’
Report on Internal Control over Financial Reporting, which is an
improvement over the prior year, when the auditors reported one material
weakness. The significant deficiency related to inadequate funds
management controls. Financial and compliance controls are not adequate
to ensure that obligation transactions are executed and recorded in
accordance with laws and regulations, and that related undelivered orders
and accounts payable balances are accurate and complete.

     Additionally, in the FY 2012 Independent Auditors’ Report on
Compliance and Other Matters, the auditors noted that the USMS’s financial
management systems did not substantially comply with federal financial
management system requirements as required by the Federal Financial
Management Improvement Act of 1996.

      The OIG reviewed Cotton & Company LLP’s reports and related
documentation and made necessary inquiries of its representatives. Our
review, as differentiated from an audit in accordance with Government
Auditing Standards, was not intended to enable us to express, and we do not
express, an opinion on the USMS’s financial statements, conclusions about



                                    -i-
the effectiveness of internal control, conclusions on whether the USMS’s
financial management systems substantially complied with the Federal
Financial Management Improvement Act of 1996, or conclusions on
compliance with laws and regulations. Cotton & Company LLP is responsible
for the attached auditors’ reports dated November 5, 2012, and the
conclusions expressed in the reports. However, our review disclosed no
instances where Cotton & Company LLP did not comply, in all material
respects, with auditing standards generally accepted in the United States of
America.




                                    - ii -
               UNITED STATES MARSHALS SERVICE

                ANNUAL FINANCIAL STATEMENTS

                      FISCAL YEAR 2012


                          TABLE OF CONTENTS


                                                                              PAGE


MANAGEMENT'S DISCUSSION AND ANALYSIS..........................................3


INDEPENDENT AUDITORS’ REPORTS


  REPORT ON FINANCIAL STATEMENTS ................................................ 21


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING............ 23


  REPORT ON COMPLIANCE AND OTHER MATTERS ................................ 33


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  CONSOLIDATED BALANCE SHEETS.................................................... 37


  CONSOLIDATED STATEMENTS OF NET COST ...................................... 38


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION............. 39


  COMBINED STATEMENTS OF BUDGETARY RESOURCES ........................ 40


  NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS ........................... 41


REQUIRED SUPPLEMENTARY INFORMATION


  COMBINING STATEMENTS OF BUDGETARY RESOURCES ...................... 62


OTHER ACCOMPANYING INFORMATION


   COMBINED SCHEDULE OF SPENDING ............................................... 67


APPENDIX


  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY

    OF ACTIONS NECESSARY TO CLOSE THE REPORT .......................... 71

This page left intentionally blank.
	
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



  MANAGEMENT’S DISCUSSION AND ANALYSIS

              (UNAUDITED)




                  -1-
This page left intentionally blank.
	




               -2-
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


The United States Marshals Service (USMS) is the nation’s oldest Federal law enforcement agency
and operates under very broad statutory authorities (28 U.S.C. 564 and 566). These authorities
provide the USMS with a great deal of discretion in performing its complex missions. All of the
USMS duties and responsibilities emanate from these statutory authorities.

MISSION
The mission of USMS is to enforce Federal laws and provide support to virtually all elements of the
Federal justice system by providing for the security of Federal court facilities and the safety of
judges and other court personnel; apprehending fugitives; exercising custody of Federal prisoners
and providing for their security and transportation to detention facilities; executing Federal court
orders; managing and disposing of the assets seized and forfeited by Federal law enforcement
agencies; and assuring the safety of protected government witnesses and their families. To execute
this mission, the USMS organizes its workload and allocates resources into five mission areas:
   •	 Judicial and Courthouse Security – The USMS protects Federal judges, jurors, and other
      participants in the Federal judicial process. This mission encompasses personnel security
      (security protective detail for a judge or prosecutor) and building security (security
      equipment to monitor and protect a Federal courthouse facility). The USMS assesses and
      investigates all inappropriate communication and threats to the Federal judiciary. The
      USMS also participates on Joint Terrorism Task Forces and shares threat intelligence
      information with other agencies.
   •	 Fugitive Apprehension – The USMS is authorized to locate and apprehend Federal, state,
      and local fugitives both within and outside the U.S. under 28 U.S.C. 566(e)(1)(B). Fugitive
      apprehension includes warrants involving: escaped Federal prisoners; Federal probation,
      parole and bond default violators; and fugitives based on warrants generated during drug
      investigations. This mission also includes investigating and apprehending those who violate
      the Adam Walsh Child Protection and Safety Act.
   •	 Prisoner Security and Transportation – The USMS is responsible for processing
      prisoners in the cellblock, providing security for the cellblock area, transporting prisoners by
      ground or air, and inspecting non-Federal jails used to house Federal detainees. The USMS
      is responsible for producing in-custody prisoners for court proceedings, which involves
      moving prisoners between judicial districts and detention facilities.
   •	 Protection of Witnesses – The USMS provides for the security, health and safety of
      protected government witnesses and their immediate dependents whose lives are in danger
      because of their testimony against drug traffickers, terrorists, organized crime members, and
      other major criminals.
   •	 Tactical Operations – The USMS conducts special missions in situations involving crisis
      response, homeland security, and other national emergencies requiring a coordinated tactical
      response.
USMS missions comprise crosscutting activities that are implemented throughout the country and
several foreign office locations. USMS missions correspond with all three Department of Justice
(DOJ) strategic goals as described in the DOJ Fiscal Years 2012-2016 Strategic Plan (Strategic
Plan).




United States Marshals Service
                                               -3-
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


ORGANIZATION STRUCTURE
The USMS headquarters (HQ) is located in Arlington, Virginia, with 94 district offices operating in
over 400 Federal courts and other locations throughout the United States and its territories. The
USMS organizational chart and district office locations are contained in Attachments 1 and 2.
Specific courthouse locations can be found on the USMS internet web site at:
www.usmarshals.gov. The decentralized organizational structure ensures that the USMS is able to
respond to law enforcement challenges in an efficient and effective manner.

FINANCIAL STRUCTURE
The financial structure of the USMS is decentralized, allowing each district and HQ program office
to exercise control over its respective budgetary accounts. The Financial Services Division (FSD)
at HQ assists district and HQ program offices by providing oversight, monitoring of commitments,
obligations, payments, outlays, and budget allocations. The USMS reports on the following
accounts:
Salaries and Expenses Appropriation (S&E)
The USMS S&E Appropriation is used for necessary general operating expenses. This funding
encompasses payroll, rent, utilities, travel, supplies, and equipment purchases. Funding is
appropriated by Congress on an annual basis and, within the amounts made available to the USMS,
may include specific no-year or multi-year budget authority. Once enacted, funds are apportioned
by the Office of Management and Budget (OMB) and DOJ to the USMS.
Construction Appropriation
The Construction Appropriation is a no-year account that is appropriated annually to the USMS. In
fiscal year (FY) 2011, the USMS began using additional Southwest Border multi-year construction
funding. This funding is to plan, construct, renovate, equip, and maintain any space controlled,
occupied, or utilized by the USMS in U.S. courthouses and other buildings. Once enacted, funds
are apportioned by OMB and DOJ to the USMS.
Justice Prisoner and Alien Transportation System Revolving Fund
The Justice Prisoner and Alien Transportation System (JPATS) was established in 1995 by
combining the aircraft fleets of several DOJ components. Initially this program was funded within
the USMS S&E Appropriation. In 1998, OMB established the JPATS Revolving Fund in order to
finance flight operations and maintenance through customer funding rather than by direct
appropriations. The USMS transportation requirements are funded using annual reimbursable
agreements between the USMS and the Office of the Federal Detention Trustee (OFDT). OFDT’s
funding source is its Detention Appropriation.
Reimbursable Agreement Authority with OFDT
OFDT was established in 2003 as an oversight organization responsible for coordinating detention
and transportation requirements on behalf of the DOJ. OFDT issues detention funding to the USMS
through reimbursable agreements, using OFDT's Detention Appropriation. The Detention
Appropriation is a no-year authority that is appropriated annually by Congress to the OFDT.
Allocation Transfer Authority from the Administrative Office of the U.S. Courts (AOUSC)
AOUSC receives an annual Court Security Appropriation that includes allocation transfer authority
to the USMS. AOUSC transfers funds to the USMS each year using a non-expenditure transfer



United States Marshals Service
                                               -4-
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


authorization (SF-1151). The funds are used to pay the wages, supplies, and equipment for Court
Security Officers (CSO) who provide security at Federal courthouses and other facilities that have
Federal court operations. Funds are also used to obtain and install security equipment to screen and
monitor visitors and packages that enter Federal courthouses.

ANALYSIS OF FINANCIAL STATEMENTS
Assets: The USMS’s Consolidated Balance Sheet as of September 30, 2012, shows $909.8 million
in total assets, an decrease of $104 million (10.3 percent) from the previous year’s total assets of
$1,013.8 million. The largest assets include Fund Balance with U.S. Treasury (FBWT) and General
Property, Plant, and Equipment in the combined amounts of $754.1 million and $826.5 million as of
September 30, 2012 and 2011, respectively. This comprised 82.9 percent and 81.5 percent of total
assets as of September 30, 2012 and 2011, respectively.
The FBWT represents all funds the USMS has on account with the U.S. Treasury to cover
expenditures and pay liabilities. These funds are expended to support numerous programs and
activities so that the USMS may accomplish its primary mission of protecting the Federal judicial
process.
The General Property, Plant, and Equipment net balance represents property and leasehold
improvement items with a cost basis greater than $25,000 ($100,000 for airplanes and leasehold
improvements) less accumulated depreciation/amortization. As of September 30, 2012, the General
Property, Plant, and Equipment net balance was $265.9 million. As of September 30, 2011, the
General Property, Plant, and Equipment net balance was $264.2 million.
Liabilities: Total USMS liabilities were $480.8 million as of September 30, 2012, a decrease of
$110.8 million (18.7 percent) from the previous year’s total liabilities of $591.6 million. The
largest liability is Accounts Payable with the Public, which equaled $244.0 million and $354.2
million, as of September 30, 2012 and 2011, respectively. This comprised 50.7 and 59.9 percent of
total liabilities, as of September 30, 2012 and 2011, respectively. The USMS provides secure
confinement and housing at non-Federal (state, local, and private) detention facilities for Federal
prisoners prior to judicial proceedings. Accounts Payable with the Public are impacted by the
fluctuation of the Federal prisoner population housed at these facilities. Additionally, in
anticipation of the migration to the Unified Financial Management System (UFMS) in FY 2013,
USMS accelerated payments and made a concerted effort to reduce accounts payable balances.
Net Cost of Operations: The USMS’s Consolidated Statements of Net Cost present the gross and
net cost by strategic goal. The net cost of USMS operations remained stable totaling $1,648.1
million for the year ended September 30, 2012, an increase of $20.3 million (1.6 percent) from the
previous year’s net cost of operations of $1,627.8 million. However, Strategic Goal 1 costs were
$4.8 million for the year ended September 30, 2012, a decrease of $1.7 million (26.1 percent) from
the previous year’s Strategic Goal 1 costs of $6.5 million. The decrease is primarily due to reduced
spending within the Office of Protective Intelligence (OPI).
Budgetary Resources: The USMS’s FY 2012 Combined Statements of Budgetary Resources
show $3,286.6 million in total budgetary resources, which remained stable with a decrease of $36.2
million (1.1 percent) from the previous year’s total budgetary resources of $3,322.8 million.




United States Marshals Service
                                               -5-
                                            U.S. Department of Justice

                                          United States Marshals Service

                                   Management’s Discussion and Analysis (Unaudited)


Net Outlays: The USMS’s FY 2012 Combined Statements of Budgetary Resources show $1,673.5
million in net outlays, which also remained stable reflecting an increase of $18.7 million (1.1
percent) from the previous year’s total net outlays of $1,654.8 million.

                                   Table 1. Source of the USMS Resources
                                           (Dollars in Thousands)
                               Source                                 FY 2012     FY 2011         Change%
    Earned Revenue                                                $    1,543,645 $ 1,583,960            (3%)
    Budgetary Financing Sources
      Appropriations Received                                          1,189,000     1,142,388           4%
      Appropriation Transferred-In/Out                                   416,211       388,191           7%
      Other Adjustments and Other Budgetary Financing Sources             (2,200)       (2,285)          4%
    Other Financing Sources
      Transfers-In/Out Without Reimbursement                                58         162             (64%)
      Imputed Financing from Costs Absorbed by Others                   51,770      55,646              (7%)
    Total                                                         $ 3,198,484 $ 3,168,062                 1%

                                   Table 2. How USMS Resources are Spent
                                            (Dollars in Thousands)
                            Strategic Goal (SG)                       FY 2012      FY 2011        Change%
     SG 1: Prevent Terrorism and Promote the Nation's Security
     Consistent with the Rule of Law
                                                         Gross Cost $      4,794 $      6,484
                                                           Net Cost        4,794        6,484          (26%)
     SG 2: Prevent Crime, Protect the Rights of the American
     People, and Enforce Federal Law
                                                         Gross Cost $     32,637 $     30,396
                                                           Net Cost       32,637       30,396            7%
     SG 3: Ensure and Support the Fair, Impartial, Efficient, and
     Transparent Administration of Justice at the Federal, State,
     Local, Tribal, and International Levels
                                                         Gross Cost    3,154,286    3,174,846
                                              Less: Earned Revenue     1,543,645    1,583,960
                                                           Net Cost    1,610,641    1,590,886            1%

                                                Total Gross Cost       3,191,717     3,211,726
                                     Less: Total Earned Revenue        1,543,645     1,583,960
                                    Total Net Cost of Operations $     1,648,072 $   1,627,766           1%




United States Marshals Service
                                                    -6-
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)



2012 FINANCIAL HIGHLIGHTS
The Strategic Plan includes three strategic goals, which have been modified from the previous
Strategic Plan to reflect the goals, objectives, and areas of emphasis of Attorney General Eric H.
Holder, Jr. While the strategic goals are similar to those in the prior version, the current DOJ
Strategic Plan places a stronger emphasis on rule of law, international partnerships, reinvigorating
the traditional missions of DOJ, and restoring credibility to the Department. The USMS receives
funding through direct appropriations (S&E and Construction), transfers from AOUSC and others,
and a variety of reimbursable sources that support the following three strategic goals:
Strategic Goal 1, Prevent Terrorism and Promote the Nation’s Security Consistent with the
Rule of Law, includes activities that strengthen partnerships to prevent, deter, and respond to
terrorist incidents. The Goal 1 costs include payroll and operating costs for the OPI and payroll
costs for deputies working with the Federal Bureau of Investigation (FBI) Joint Terrorism Task
Forces. The USMS expended net program costs of $4.8 million for the FY ending September 30,
2012 and $6.5 million for the FY ending September 30, 2011, on Strategic Goal 1.
Strategic Goal 2, Prevent Crime, Protect the Rights of the American People, and Enforce
Federal Law, includes activities related to fugitive investigation and apprehension efforts that
prevent, suppress, and intervene in crimes against children. When the Adam Walsh Child
Protection and Safety Act was enacted in 2006, the Attorney General gave the USMS primary
enforcement responsibility. The Goal 2 costs include payroll and operating costs related to the Sex
Offender Apprehension Program (SOAP). The USMS expended net program costs of $32.6 million
for the FY ending September 30, 2012 and $30.4 million for the FY ending September 30, 2011, on
Strategic Goal 2.
Strategic Goal 3, Ensure and Support the Fair, Impartial, Efficient, and Transparent
Administration of Justice at the Federal, State, Local, Tribal, and International Levels,
includes activities that protect the Federal judiciary and other participants in Federal proceedings,
and ensure the apprehension of fugitives from justice. The USMS expended net program costs of
$1,610.6 million for the FY ending September 30, 2012 and $1,590.9 million for the FY ending
September 30, 2011, on Strategic Goal 3.

PERFORMANCE INFORMATION
Data Reliability and Validity
The USMS views data reliability and validity as critically important in the planning and assessment
of our performance. As such, this document includes a discussion of data validation, verification,
and any identified data limitations for each performance measure presented. The USMS ensures
that data reported meets the following criteria:
       At a minimum, performance data are considered reliable if transactions and other
       data that support reported performance measures are properly recorded, processed,
       and summarized to permit the preparation of performance information in accordance
       with criteria stated by management. Performance data need not be perfect to be
       reliable, particularly if the cost and effort to secure the best performance data
       possible will exceed the value of any data so obtained.



United States Marshals Service
                                                 -7-
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


FY 2012 REPORT ON SELECTED RESULTS

STRATEGIC GOAL 2: Prevent Crime, Protect the Rights of the American People, and
Enforce Federal Law – 2 percent of USMS’s Net Costs support this Goal.

     STRATEGIC OBJECTIVE 2.2: Prevent and intervene in crimes against vulnerable
     populations; uphold the rights of, and improve services to, America’s crime victims.

PROGRAM: NEW MEASURE – Sex Offender Apprehension Program

Background/Program Objectives:
The USMS has been designated by                      Number of AWA Investigations Opened by Full-Time 

                                                  District SOICs (Sex Offender Investigations Coordinator)*

the Attorney General as the lead
                                        1,800
agency for locating and                 1,600
apprehending non-compliant sex          1,400
                                        1,200
offenders and others who violate        1,000
the provisions of the Adam Walsh




                                                                                                                         1,531
                                          800




                                                                                                                 1,305
Child Protection and Safety Act of        600
                                          400
2006 (AWA). A non-compliant               200
sex offender is any person who              0
                                                Actual Actual Actual Actual Actual Actual Actual Actual Actual Target Actual

fails to comply with their                      FY 03 FY 04 FY 05 FY 06 FY 07 FY 08 FY 09 FY 10 FY 11 FY 12 FY 12

registration requirements.             * The title of this performance measure has been refined to match USMS Budget
                                       Submissions.
During FY 2009, the USMS, with         Data Definitions: This measure includes all AWA investigations that reach
guidance and direction from the        the level of the Attorney General’s Guidelines for Conducting Domestic
                                       Investigations.
DOJ Criminal Division, issued
legal and investigative guidelines     Data Collection and Storage: The USMS maintains the Justice Detainee
                                       Information System (JDIS) to collect warrant information, investigative
to assist in the investigations of     leads, and other criminal information. Within JDIS, the Sex Offender
violations of the AWA. The             Investigations Branch has created a criminal case management system for
                                       Adam Walsh Act (18 USC 2250) investigations. Upon receipt of a lead
USMS continues to establish            from state or local law enforcement about a potential Adam Walsh Act
contacts with state and local law      violation, Deputy U.S. Marshals query the FBI’s National Crime Information
                                       Center (NCIC) and the International Justice and Public Safety Information
enforcement agencies, and registry     Network (NLETS) through JDIS to look for previous criminal information. If
officials to coordinate efforts to     appropriate, an Adam Walsh Act investigation is then opened in the JDIS
                                       case management system. These cases are reviewed according to USMS
identify, apprehend, and prosecute     procedure and either elevated in status or closed as information is
non-compliant sex offenders. The       developed.

USMS is also coordinating its          Data Validation and Verification: The USMS coordinates with district
                                       offices to verify that the warrants entered into JDIS are validated against
enforcement efforts with               the signed court records. Validation of other data within JDIS is validated
INTERPOL National Central              by verifying the information using other source documents or systems
                                       (NCIC). Investigative case data is verified according to NCIC policy and
Bureau in Washington, D.C. to          procedures. The district offices work with sex offender registry officials to
identify sex offenders engaging in     ensure that data is correct. The USMS is able to enhance fugitive
                                       investigative efforts by sharing data with other agencies such as the Social
international travel to ensure they    Security Administration, Department of Housing and Urban Development,
comply with their registration.        Drug Enforcement Administration, Department of Agriculture, Department
                                       of Defense, Department of State, and a variety of task forces around the
                                       country.
Through the continued                  Data Limitations: JDIS data, including the case management system, is
development of the National Sex        accessible to all USMS districts and is updated as new information is
                                       collected; therefore, there may be a lag in reporting of data. As this is a
                                       new measure, the data was not tracked or reported before FY 2012.


United States Marshals Service
                                                    -8-
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


Offender Targeting Center (NSOTC), the USMS assists other Federal departments and agencies
with their battle against non-compliance. This includes assisting the Department of Defense with
the location and apprehension of military sex offenders, along with Absence Without Leave
personnel. Additionally, working with registry officials, Transportation Security Administration,
INTERPOL, Diplomatic Security Service, and foreign governments, the NSOTC has become a
central collection point for reporting international travel of offenders, and in tracking the return of
offenders to the U.S. to assess the potential for non-compliance.

The NSOTC also houses the USMS’s Behavioral Analysis Unit (BAU) that works to prioritize
offenders for dangerousness, identify trends of offenders, conduct related research, and ensure the
wellness of Federal, state, and local agents working in the field of sex offenders and sex offenses.
Through the BAU, the USMS has fast become an important resource to law enforcement
nationwide in the battle against non-compliance.

USMS also created a new performance measure to support this effort, “Number of AWA
Investigations Opened by Full-Time District SOICs (Sex Offender Investigations Coordinator)” as
illustrated on the previous page. The basis for the FY 2012 Target for this performance
measurement was derived by first estimating the number of investigations deemed appropriate for
each full-time SOIC to open in a fiscal year (which was determined to be 15); and subsequently
multiplying that amount by the 87 full-time District SOICs in the field, totaling 1,305.

Performance Measure: Number of AWA Investigations Opened by Full-Time District SOICs (Sex
Offender Investigations Coordinator)
       FY 2003 Actual Performance:             Not Available

       FY 2004 Actual Performance:             Not Available

       FY 2005 Actual Performance:             Not Available

       FY 2006 Actual Performance:             Not Available

       FY 2007 Actual Performance:             Not Available

       FY 2008 Actual Performance:             Not Available

       FY 2009 Actual Performance:             Not Available

       FY 2010 Actual Performance:             Not Available

       FY 2011 Actual Performance:             Not Available

       FY 2012 Target:                         1,305 

       FY 2012 Actual Performance:             1,531 


Discussion of FY 2012 Results: The USMS exceeded its FY 2012 target of 1,305 AWA
Investigations, opened by full-time District SOICs. During FY 2012, the 87 full-time SOIC’s
opened a total of 1,531 investigations in efforts to identify, apprehend, and prosecute non-compliant
sex offenders. In addition, the USMS, as a whole, opened a total of 3,169 AWA Investigations,
received 646 Federal Warrants for AWA registration violations, of which 586 were cleared by
USMS arrest.

The title of this Performance Measure will be revised for FY 2013.




United States Marshals Service
                                                 -9-
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


STRATEGIC GOAL 3: Ensure and Support the Fair Impartial, Efficient, and Transparent
Administration of Justice at the Federal, State, Local, Tribal, and International Levels – 98
percent of USMS’s Net Costs support this Goal

     STRATEGIC OBJECTIVE 3.2: Protect judges, witnesses, and other participants in Federal
     proceedings; apprehend fugitives; and ensure the appearance of criminal defendants for
     judicial proceedings or confinement.

PROGRAM: Fugitive Apprehension Program

Background/Program Objectives:                                   Number and Percent of Primary Federal Felony Fugitives
The USMS has a long and                                                        Apprehended or Cleared
distinguished history of providing       40,000
                                                                                               55%       55%       52%       50%       52%       52%       50%
assistance and expertise to other        35,000
                                                   54%            55%       55%       54%
                                         30,000
Federal, state, or local law             25,000

enforcement agencies in support of




                                                                                                                                                            36,229
                                                                                                                                        34,629


                                                                                                                                                  34,421
                                                                                                          34,393
                                                                                                33,437




                                                                                                                    32,860


                                                                                                                              32,864
                                         20,000




                                                                             30,434


                                                                                      30,192
                                                                   29,140
                                                       27,278


violent crime reduction through          15,000

                                         10,000
fugitive investigations. These            5,000
partnerships have evolved into the           0
                                                   Actual Actual Actual Actual Actual Actual Actual Actual Actual Target Actual

ultimate force multiplier in Federal               FY 03 FY 04 FY 05 FY 06 FY 07 FY 08 FY 09 FY 10 FY 11 FY 12 FY 12


law enforcement, and allow our task
                                        Data Definitions: A “primary” Federal felony fugitive means that the
forces to focus on the most             USMS has the lead apprehension responsibility. The USMS has
egregious state and local fugitives     primary jurisdiction to investigate fugitive matters involving:
and ensure the greatest protection to             •	            escaped Federal prisoners,
the Public by maximizing the                      •	            probation, parole, and bond default violators,
effectiveness of resources. The                   •	            warrants generated by the DEA and referred to the USMS,
                                                  •	            any other Federal warrant referred by another Federal
USMS uses a combination of                                      agency.
Regional Fugitive Task Forces
                                        A fugitive is considered apprehended or cleared if the fugitive is
(RFTFs) and District Fugitive Task      arrested, has a detainer issued, or the warrant is dismissed. The
forces (DFTFs) to form a national       percent cleared is calculated by dividing the number of cleared
network responsible for the             fugitives by the sum of received fugitives (fugitives who had a warrant
                                        issued during the FY) and on-hand fugitives (fugitives who had an
apprehension of violent fugitive        active warrant at the beginning of the FY).
felons. The Presidential Threat         Data Collection and Storage: The USMS maintains JDIS to collect
Protection Act of 2000 initially        warrant information, investigative leads, and other criminal
                                        information. Upon receipt of a warrant from a Federal judge, Deputy
established the USMS RFTF model.        U.S. Marshals query the FBI’s NCIC and NLETS through JDIS to look
It consists of Federal, state, and      for previous criminal information.
local law enforcement authorities in    Data Validation and Verification: Warrant and fugitive data are
designated regions of the United        verified according to NCIC policy and procedures. The USMS
                                        coordinates with district offices to verify that warrants are validated
States, which are directed and          against the signed court records. The USMS is able to enhance
coordinated by the USMS, for the        fugitive investigative efforts by sharing data with other agencies, such
purpose of locating and                 as the Social Security Administration, DEA, Department of
                                        Agriculture, Department of Defense, Department of State, and a
apprehending fugitives. In addition     variety of state and local task forces around the country.
to domestic activities, the USMS is     Data Limitations: JDIS data is accessible to all USMS districts and
the lead agency responsible for         is updated as new information is collected and thus there may be a
extraditing (or deporting) U.S.         lag in reporting of data.




United States Marshals Service
                                                       - 10 -
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


fugitives that have fled to foreign countries back into this country. The USMS also apprehends
foreign fugitives within the U.S. who are wanted abroad.
As part of the fugitive apprehension mission, the USMS has been designated by the Attorney
General as the lead agency for locating and apprehending non-compliant sex offenders and others
who violate the provisions of the AWA. A non-compliant sex offender is any person who fails to
comply with Federal registration requirements.
Performance Measure: Number and Percent of Primary Federal Felony Fugitives Apprehended or
Cleared
       FY 2003 Actual Performance:            27,278/54 percent

       FY 2004 Actual Performance:            29,140/55 percent

       FY 2005 Actual Performance:            30,434/55 percent

       FY 2006 Actual Performance:            30,192/54 percent

       FY 2007 Actual Performance:            33,437/55 percent

       FY 2008 Actual Performance:            34,393/55 percent

       FY 2009 Actual Performance:            32,860/52 percent

       FY 2010 Actual Performance:            32,864/50 percent

       FY 2011 Actual Performance:            34,629/52 percent

       FY 2012 Target:                        34,421/52 percent

       FY 2012 Actual Performance:            36,229/50 percent


Discussion of FY 2012 Results: In FY 2012, the USMS apprehended or cleared 36,229 primary
Federal felony fugitives, exceeding the target of 34,421. This resulted in 50 percent of total primary
Federal felony fugitives apprehended or cleared which is half of the 72,001 warrants on hand or
received during FY 2012. The target of 52 percent apprehended or cleared was not met due to the
dynamic and increasing level of the underlying number of fugitives. Among those arrested, 3,934
(including State/Local) were for crimes of homicide, 4,917 (including State/Local) were gang
members, and 12,976 (including State/Local) were sex offenders. In addition, in FY 2012, the
USMS had 924 fugitives extradited and /or deported to the United States from other countries.
The seven operating RFTF, in addition to the 60 district task forces, are directing their investigative
efforts toward reducing the number of violent crimes. These crimes include terrorist activities,
organized crime, drugs, and gang violence. The RFTF and DFTF combined led to the arrest of
86,016 state and local fugitive felons in FY 2012. The USMS initiated 3,208 Federal investigations
into the failure of sex offenders to meet their registration requirements.
The title of this Performance Measure will be revised for FY 2013.




United States Marshals Service
                                                - 11 -
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE

USMS Major Systems
Justice Unified Telecommunications Network (JUTNet): The backbone infrastructure that
supports all the systems that operate within the USMS.
Warrant Information Network (WIN): Tracks Federal fugitive warrants, task force warrants,
collateral lead information, and case management information.
Standardized Tracking, Accounting and Reporting System (STARS): The primary financial
management system of the USMS.
The USMS is planning to migrate STARS functions to the DOJ UFMS in FY 2013. UFMS has
been designed and developed to allow some of the components of the DOJ to integrate their
operations into one system from which they will process financial and procurement activity.
JPATS Management Information System (JMIS): Draws information from multiple JPATS-
specific programs and databases in order to produce financial and managerial information.

Justice Detainee Information System 8 (JDIS 8): JDIS 8 combines all the information from JDIS
and WIN. JDIS 8 has been designed to automate and integrate the information captured during the
prisoner booking process and subsequent USMS custody details, with warrant and investigative
information utilized to track fugitives.

The Federal Managers’ Financial Integrity Act of 1982

The Federal Managers’ Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the
statutory basis for management’s responsibility for and assessment of internal accounting and
administrative controls. Such controls include program, operational, and administrative areas, as
well as accounting and financial management. The FMFIA requires Federal agencies to establish
controls that reasonably ensure obligations and costs comply with applicable law; funds, property,
and other assets are safeguarded against waste, loss, unauthorized use, or misappropriation; and
revenues and expenditures are properly recorded and accounted for to maintain accountability over
the assets. The Integrity Act also requires agencies to annually assess and report on the internal
controls that protect the integrity of Federal programs (FMFIA § 2) and whether financial
management systems conform to related requirements (FMFIA § 4).
Guidance for implementing the Integrity Act is provided through OMB Circular A-123. In addition
to requiring agencies to provide an assurance statement on the effectiveness of programmatic
internal controls and conformance with financial systems requirements, the Circular requires
agencies to provide an assurance statement on the effectiveness of internal control over financial
reporting. The Department requires components to provide both of the assurance statements in
order to have the information necessary to prepare the agency assurance statements.

FMFIA Assurance Statement

Management of the USMS is responsible for establishing and maintaining effective internal controls
and financial management systems that meet the objectives of FMFIA. The USMS assessed its



United States Marshals Service
                                              - 12 -
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


internal controls over the effectiveness and efficiency of operations and compliance with applicable
laws and regulations in accordance with OMB Circular A-123, Management’s Responsibility for
Internal Control, as required by Section 2 of FMFIA. The USMS also assessed whether its
financial management systems conform to government-wide requirements, as required by Section 4
of FMFIA. Based on the results of the assessments, the USMS can provide reasonable assurance
that its internal controls and financial managements systems meet the objectives of the FMFIA.
Internal controls were operating effectively as of June 30, 2012, and the assessments identified no
material weaknesses in the design or operation of the controls and no system non-conformances
required to be reported.

Internal Controls Program
USMS management continues to support and commit resources to Departmental component internal
control programs. The objective of the USMS’s internal control program is to provide reasonable
assurance that operations are effective, efficient, and comply with applicable laws and regulations;
financial reporting is reliable; and assets are safeguarded against waste, loss, and unauthorized use.
USMS management identifies issues of concern through a network of oversight councils and
internal review teams. These include the USMS Office of Inspections, the Department’s OMB
Circular A-123 Senior Assessment Team, and the Justice Management Division’s Internal Review
and Evaluations Office, and Quality Control and Compliance Group. USMS management also
considers reports issued by the Office of the Inspector General in its evaluation of internal control.
The USMS commitment to management excellence, accountability, and compliance with applicable
laws and regulations is evidenced by efforts to establish reasonable controls and make sound
determinations on corrective actions.

Legal Compliance

Federal Financial Management Improvement Act of 1996 (FFMIA)
The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to improve
Federal financial and program managers’ accountability, provide better information for decision-
making, and improve the efficiency and effectiveness of Federal programs. FFMIA requires
agencies to have financial management systems that substantially comply with Federal financial
management systems requirements, applicable Federal accounting standards, and the U.S. Standard
General Ledger (USSGL) at the transaction level. Furthermore, the Act requires independent
auditors to report on agency compliance with the three requirements in the financial statement audit
report. The Federal Information Security Management Act (FISMA) states that to be substantially
compliant with FFMIA, there are to be no significant deficiencies in information security policies,
procedures, or practices.

FFMIA Compliance Determination
USMS management assessed its financial management systems for compliance with FFMIA and
determined that the systems were not fully compliant in FY 2012.
    •	 The USMS’s financial management system, STARS, does not meet Federal financial
       management systems requirements established in OMB Circular A-127, Financial
       Management Systems, because STARS lacks integrated subsidiary records to support



United States Marshals Service
                                               - 13 -
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


        certain material account balances. USMS must rely on manually prepared subsidiary
        ledgers and manual processes to generate financial reports.

POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS
USMS financial statements document existing, currently known events, conditions and trends.
Through the agency financial transactions, one can learn how the USMS has used its appropriated
resources to meet its strategic goals.
Current trends, including an increased focus on illegal immigration, the impact of the current
economic recession, and a merger with the Office of the Federal Detention Trustee (OFDT) may
alter the resources needed by the USMS in order to fulfill its law enforcement mission in FY 2013
and beyond.
Illegal Immigration
Illegal immigration has become a key issue across the country as many states have recently passed
laws that will increase the demand on law enforcement to apprehend and adjudicate persons living
in the country illegally. As a key agency involved in Southwest Border law enforcement activities,
the USMS will play a pivotal role in the evolving legal environment.
Current Economic Conditions
The downturn in the economy may place additional demands on USMS operations as fluctuations in
criminal activity tend to occur in times of economic distress.
OFDT Merger
In FY 2013, the Department proposes merging OFDT with USMS. The merger will align the
accountability of resources with the responsibility of Federal detention operations under a single
command and control structure within the USMS leadership. The OFDT will become the Federal
Prisoner Detention appropriation under the USMS.

IMPROPER PAYMENTS ELIMINATION AND RECOVERY ACT IMPLEMENTATION
In accordance with OMB Circular A-123, Appendix C, Requirements for Effective Measurement
and Remediation of Improper Payments, and the Departmental guidance for implementing the
Improper Payments Elimination and Recovery Act (IPERA), the Department implemented a top-
down approach to assess the risk of significant improper payments across all five of the
Department’s mission-aligned programs, and to identify and recapture improper payments through a
payment recapture audit program. The approach promotes consistency across the Department and
enhances internal control related to preventing, detecting, and recovering improper payments.
Because of the OMB requirement to assess risk and report payment recapture audit activities by
agency programs, the results of the Department’s risk assessment and recapture activities are
reported at the Department-level only.
In accordance with the Departmental approach for implementing IPERA, the USMS assessed its
activities for susceptibility to significant improper payments. The USMS also conducted its
payment recapture audit program in accordance with the Departmental approach. The USMS
provided the results of both the risk assessment and payment recapture audit activities to the
Department for the Department-level reporting in the FY 2012 Performance and Accountability
Report.


United States Marshals Service
                                              - 14 -
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


LIMITATIONS OF THE FINANCIAL STATEMENTS
   •	 USMS financial statements have been prepared to report the financial position and results of
      agency operations, pursuant to the requirements of 31 U.S.C. 3515(b).
   •	 While the statements have been prepared from the books and records of the USMS in
      accordance with U.S. generally accepted accounting principles for Federal entities and the
      formats prescribed by OMB, the statements are in addition to the financial reports used to
      monitor and control budgetary resources, which are prepared from the same books and
      records.
   •	 The statements should be read with the realization that they are for a component of the U.S.
      government, a sovereign entity.




United States Marshals Service
                                              - 15 -
                                          U.S. Department of Justice

                                        United States Marshals Service

                        Management’s Discussion and Analysis (Unaudited) – Attachment 1





United States Marshals Service
                                             - 16 -
                                           U.S. Department of Justice

                                         United States Marshals Service

                         Management’s Discussion and Analysis (Unaudited) – Attachment 2



                    THE 94 USMS DISTRICT OFFICES





United States Marshals Service
                                            - 17 -
This page left intentionally blank.
	




              - 18 -
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



     INDEPENDENT AUDITORS’ REPORTS




                 - 19 -
This page left intentionally blank.
	




              - 20 -
                                INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS


Inspector General
United States Department of Justice


Director
United States Marshals Service
United States Department of Justice


We have audited the accompanying Consolidated Balance Sheets of the United States Marshals Service (USMS), a
component of the United States Department of Justice (DOJ), as of September 30, 2012 and 2011, and the related
Consolidated Statements of Net Cost, Consolidated Statements of Changes in Net Position, and Combined
Statements of Budgetary Resources for the years then ended. These financial statements are the responsibility of
USMS’s management. Our responsibility is to express an opinion on these financial statements based on our
audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended. Those standards and OMB Bulletin No. 07-04 require
that we plan and perform the audits to obtain reasonable assurance about whether the financial statements are
free of material misstatement. An audit includes consideration of internal control over financial reporting as a
basis for designing audit procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of USMS’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting principles used, and
significant estimates made by management, as well as evaluating the overall financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the consolidated
financial position of the United States Department of Justice, United States Marshals Service as of September 30,
2012 and 2011, and its consolidated net costs, consolidated changes in net position, and combined budgetary
resources for the years then ended, in conformity with accounting principles generally accepted in the United
States of America.

Accounting principles generally accepted in the United States of America and OMB Circular No. A-136, Financial
Reporting Requirements, require that the Management’s Discussion and Analysis and the Combining Statements of
Budgetary Resources be presented to supplement the basic financial statements. Such information, although not a
part of the basic financial statements, is required by the Federal Accounting Standards Advisory Board and OMB,
who consider it to be an essential part of financial reporting for placing the basic financial statements in an
appropriate operational, economic, or historical context. We have applied certain limited procedures to the




                                                       - 21 -
required supplementary information in accordance with auditing standards generally accepted in the United States
of America, which consisted of inquiries of management about the methods of preparing the information and
comparing the information for consistency with management’s responses to our inquiries, the basic financial
statements, and other knowledge we obtained during our audit of the basic financial statements. We do not
express an opinion or provide any assurance on the information because the limited procedures do not provide us
with sufficient evidence to express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming opinions on USMS’s basic financial statements taken as a
whole. The Schedule of Spending is presented for the purpose of additional analysis and is not a required part of
the basic financial statements. Such information has not been subjected to the auditing procedures applied in the
audit of the basic financial statements, and accordingly, we do not express an opinion or provide any assurance on
it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 5, 2012, on
our consideration of USMS’s internal control over financial reporting and on our tests of its compliance with
certain provisions of applicable laws and regulations. The purpose of those reports is to describe the scope of our
testing of internal control over financial reporting and compliance and the results of that testing, and not to
provide an opinion on the internal control over financial reporting or on compliance. Those reports are an integral
part of an audit performed in accordance with Government Auditing Standards and should be read in conjunction
with this report in assessing the results of our audits.


COTTON & COMPANY LLP




Alan Rosenthal, CPA, CFE
Partner

November 5, 2012
Alexandria, Virginia




                                                     - 22 -
                     INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING


Inspector General
United States Department of Justice


Director
United States Marshals Service
United States Department of Justice


We have audited the Consolidated Balance Sheets of the United States Marshals Service (USMS), a component of
the United States Department of Justice (DOJ), as of September 30, 2012 and 2011, and the related Consolidated
Statements of Net Cost, Consolidated Statements of Changes in Net Position, and Combined Statements of
Budgetary Resources for the years then ended, and have issued our report thereon dated November 5, 2012. We
conducted our audits in accordance with auditing standards generally accepted in the United States of America;
standards applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements, as amended.

USMS’s management is responsible for establishing and maintaining effective internal control over financial
reporting. In planning and performing our fiscal year 2012 audit, we considered USMS’s internal control over
financial reporting as a basis for designing our auditing procedures for the purpose of expressing our opinion on
the financial statements, but not for the purpose of expressing an opinion on the effectiveness of USMS’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of USMS’s internal
control over financial reporting or on management’s assertion on internal control included in Management’s
Discussion and Analysis. We limited our internal control testing to only those controls necessary to achieve the
objectives described in Government Auditing Standards and OMB Bulletin No. 07-04. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982, such as controls relevant to ensuring efficient operations.

A deficiency in internal control exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct
misstatements on a timely basis. A material weakness is a deficiency, or combination of deficiencies, in internal
control, such that there is a reasonable possibility that a material misstatement of the entity’s financial statements
will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the second
paragraph and was not designed to identify all deficiencies in internal control over financial reporting that might
be deficiencies, significant deficiencies, or material weaknesses. We did not identify any deficiencies in internal
control over financial reporting that we consider to be material weaknesses, as defined above. However, we
identified certain deficiencies in internal control over financial reporting, described below, that, when combined,
we consider to be a significant deficiency in internal control over financial reporting. A significant deficiency is a




                                                       - 23 -
deficiency or combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit the attention by those charged with governance.

USMS’s response to the finding identified in our audit is included after each recommendation. We did not audit
USMS’s response and, accordingly, we express no opinion on it.

FUNDS MANAGEMENT CONTROLS NEED IMPROVEMENT (SIGNIFICANT DEFICIENCY) (REPEAT)

The USMS does not have adequate financial and compliance controls to ensure that obligation transactions are
executed and recorded in accordance with laws and regulations, and that related undelivered orders and accounts
payable balances are accurate and complete. During fiscal years 2010 and 2011, the USMS management, with the
assistance of contractor personnel, developed a Corrective Action Plan to address the previously reported material
weakness related to undelivered orders and accounts payable. USMS management directed testing of undelivered
orders and accounts payable and provided training, assistance, and guidance to USMS personnel throughout the
review process. The USMS made significant progress in developing and documenting standard operating
procedures for processing various types of transactions. However, during fiscal year 2012, it was noted that the
procedures were not finalized and/or consistently implemented in all of the USMS’s district and headquarters
offices. In addition, although district and headquarters office personnel completed training, the procedures have
not been in place long enough for district or program office personnel to apply them in an operational
environment, and in a routine manner. Accordingly, we identified a number of errors during fiscal year 2012
testing.

A.	 UNDELIVERED ORDERS
We selected and reviewed undelivered order transactions during interim and year-end testing. We noted
significant accounting errors and instances of noncompliance with USMS procedures, which resulted in the
following known and likely misstatements.

                                                            UNDELIVERED ORDERS
                                                       FISCAL YEAR 2012 TEST RESULTS
                                                            Number of
                                                               Errors/
                                                           Transactions
                                                                                                                                              1
     Sample Population                                         Tested             Known Errors                      Likely Misstatement
     Headquarters and District Offices	                                         $20.0 million net                      $16.8 million net
                                                               24/187
     (March 31, 2012)                                                            understatement                        understatement
     Headquarters and District Offices                                           $3.5 million net                      $4.4 million net
                                                               33/189
     (June 30, 2012)	                                                             overstatement                         overstatement
     Headquarters and District Offices	                                        $156 thousand net                       $1.4 million net
                                                                2/80
     (September 30, 2012)	                                                        overstatement                         overstatement
 1
  Each transaction tested has a unique weight in relation to the total population; therefore, the likely misstatement will not be in linear
 proportion to the known errors.

The accounting errors and instances of non-compliance are discussed below.

Headquarters and District Offices (March 31, 2012)
   •	 Seven UDOs were incorrect because the USMS did not record an accrual for goods and services received
       as of March 31, 2012. This resulted in a net overstatement of $555 thousand.

       •	   Four UDOs were incorrect because of errors in calculating accounts payable accruals or previously
            received amounts were not adjusted to reflect the actual invoice amounts. This resulted in a net
            understatement of $15 thousand.




                                                                   - 24 -
    •	   Three UDOs were overstated by a total of $1.1 million because USMS obligated additional funds for a
         purchase card without a valid obligating document and two obligations were recorded in Standardized
         Tracking Accounting and Reporting System (STARS) before GSA accepted the project.

    •	   One UDO was understated by $109 thousand because a refund received from GSA was not re-obligated in
         accordance with USMS procedures.

    •	   Two UDOs were incorrect because the USMS did not record an accrual for goods and services received as
         of March 31, 2012. This resulted in a net overstatement of $17 thousand.

    •	   Four UDOs were incorrect because of errors in calculating accounts payable accruals or previously
         received amounts were not adjusted to reflect the actual invoice amounts. This resulted in a net
         overstatement of $744 thousand.

    •	   Three UDOs were understated by a net $22.3 million because the obligations were not recorded correctly.
         For one item, the USMS obligated the entire amount allocated by HQ rather than the amount on the
         purchase order; for another item, the amount should have been deobligated by the USMS; and for
         another item, the USMS did not obligate the full contract amount as of March 31, 2012.

Headquarters; and District Offices (June 30, 2012)
   •	 Five instances where USMS did not accrue for products/services received prior to June 30 and/or USMS
       did not adjust accrual amounts based on amounts received and/or paid prior to June 30. Combined,
       these exceptions caused the UDO balance to be overstated by a net $198 thousand.

    •	   Twenty instances where USMS did not accrue for Court Security Officer (CSO) start-up costs based on the
         required methodology and/or could not support the obligated amount per the contract either because
         support was not provided, or the contract amount was not entered in STARS correctly. These exceptions
         caused the UDO balance to be overstated by a net $1.6 million.

    •	   Six instances where documentation was not provided to fully support the amount obligated and/or
         amounts accrued. These exceptions caused the UDO balance to be understated by a net $144 thousand.

    •	   One instance where USMS posted the accrued amount incorrectly in STARS based on supporting
         documentation. In this case the travel accrual that was posted for June was posted in STARS twice. In this
         instance, the obligated amount entered in STARS did not tie to the task orders. This caused the UDO
         balance to be understated by $630.

    •	   One instance where both Headquarters and the District Office entered the June obligation thus

         overstating the UDO balance by $1.8 million.


Headquarters and District Offices (September 30, 2012)
   •	 One instance where the amount accrued for September was not sufficient to cover the value of services
       received thus overstating the UDO balance by $157 thousand.

    •	   One instance where an accrual was entered for a purchase card even though services were already paid
         for thus understating the UDO balance by $539.




                                                     - 25 -
B.	 DELIVERED ORDERS – OBLIGATIONS UNPAID (ACCOUNTS PAYABLE)
We selected and reviewed accounts payable transactions during interim and year-end testing. We noted
significant accounting errors and instances of noncompliance with USMS procedures, which resulted in the
following known and likely misstatements.

                                                 DELIVERED ORDERS – OBLIGATIONS UNPAID
                                                      FISCAL YEAR 2012 TEST RESULTS
                                                           Number of
                                                      Errors/Transactions
                                                                                                                                             2
Sample Population                                            Tested               Known Errors                       Likely Misstatement
Headquarters and District Offices	                                             $751 thousand net                        $1.9 million net
                                                              8/109
(March 31, 2012)                                                                 understatement                         understatement
Headquarters and District Offices                                               $31 thousand net                        $1.6 million net
                                                             15/109
(June 30, 2012)	                                                                 understatement                          overstatement
Headquarters and District Offices	                                             $248 thousand net                        $4.2 million net
                                                              14/80
(September 30, 2012)	                                                             overstatement                          overstatement
2
 Each transaction tested has a unique weight in relation to the total population; therefore, the likely misstatement will not be in linear
proportion to the known errors. In addition, a known net understatement may project to a likely net overstatement.

The accounting errors and instances of non-compliance are discussed below.

Headquarters and District Offices (March 31, 2012)
   •	 Two instances in which the USMS did not accrue for services received during March and/or the accrual
       was calculated incorrectly. The two errors resulted in the Accounts Payable balance being understated by
       $92 thousand.

     •	    One instance in which USMS personnel double-posted an accrual due to invoices received and 

           unidentified IPAC’s which resulted in an overstatement of $89 thousand.


     •	    One instance in which a refund from a vendor on a prior transaction was not processed correctly. This
           resulted in a negative Accounts Payable balance when there should have been no payable. This error
           resulted in Accounts Payable being understated by $28.

          Two instances in which the USMS did not accrue for services received prior to March and/or did not
           adjust accrual amounts to equal actual invoiced amounts when invoices were received, causing the
           Accounts Payable balance to be understated by a net $21 thousand.

          Two instances in which accrued amounts were recorded incorrectly. In one instance, USMS entered labor
           hours worked instead of the dollar value of the wages. In the other instance, USMS incorrectly calculated
           the Monthly Start Up accrual. These errors resulted in a $727 thousand net understatement of the
           Accounts Payable balance.

Headquarters and District Offices (June 30, 2012)
   •	 One instance where the accrual methodology was not representative of the services being provided. This
       caused the Accounts Payable to be understated by $36 thousand.

     •	    Two instances where the USMS did not accrue for products/services received prior to June 30 and/or did
           not adjust accrual amounts based on amounts received and/or paid prior to June 30. Combined, these
           exceptions caused the Accounts Payable to be understated by $167 thousand.




                                                                    - 26 -
    •	   Six instances where the USMS posted an accrued amount incorrectly in STARS. This caused the Accounts
         Payable to be overstated by a net $ 96 thousand.

    •	   One instance where the USMS could not provide documentation to support accrued amounts. This
         resulted in the Accounts Payable being understated by $48 thousand.

    •	   Two instances where the USMS did not accrue for CSO start-up costs based on the established
         methodology. These exceptions caused the Accounts Payable to be understated by $12 thousand.

    •	   One instance where USMS did not accrue for services received prior to June 30. This caused the Accounts
         Payable to be understated by $716.

    •	   One instance where the accrual methodology being applied to the contract was not representative of the
         services being provided. This caused the Accounts Payable to be understated by $85 thousand.

    •	   One instance where the Account Payable balance recorded had been direct paid under a different
         obligation number. Therefore as of June 30, 2012 the Accounts Payable balance should have been de-
         obligated. This resulted in an overstated Accounts Payable balance of $221 thousand.

Headquarters and District Offices (September 30, 2012)
   •	 One instance where the accrual was not posted in accordance with supporting documentation. This
       caused the Accounts Payable to be understated by $91 thousand.

    •	   Two instances where the accrual was posted at an amount different from what was provided in the
         supporting documentation. These caused the Accounts Payable balance to be understated by $360.

    •	   Three instances related to prisoner housing where the accrual for August and/or September were not
         processed. These caused the Accounts Payable balance to be understated by $92 thousand.

    •	   Three instances where the district office posted the year-end accrual incorrectly based on a
         misunderstanding regarding guidance distributed by USMS. In these instances the district office accrued
         for the entire amount on the contract, instead of just accruing the entire start-up portion of the contract,
         which was what was outlined in the guidance. This caused the Accounts Payable balance to be overstated
         by $306 thousand.

    •	   Two instances where the methodology used to post the monthly accrual for CSO contracts was not
         consistent with USMS guidance. In these instances the district offices posted the monthly accruals based
         on the contracted amount divided by the period of performance. These caused the Accounts Payable
         balance to be overstated by $100 thousand.

    •	   One instance where an accrual was processed for services that were not provided until October FY 2013.
         This caused the Accounts Payable balance to be overstated by $3 thousand.

    •	   One instance where an invoice for start-up costs was paid in STARS under a different object class. This
         created a difference in the Accounts Payable balance at year end because the accrual processed for
         start-up costs is calculated by taking the contracted amount and subtracting the paid amounts posted in
         STARS. This caused the Accounts Payable balance to be overstated by $2 thousand.

    •	   One instance where USMS did not adjust accrued amounts in STARS based on invoices received and paid.
         This resulted in the Accounts Payable balance being overstated by $20 thousand.




                                                      - 27 -
Statement of Federal Financial Accounting Standards No. 5, Accounting for Liabilities of the Federal Government,
paragraphs 22 and 23, state that a liability and the corresponding expense should be recognized during the period
when an exchange transaction takes place.


Title 31 U.S.C. §1501(a) states:

         An amount shall be recorded as an obligation of the United States Government only when
         supported by documentary evidence of: (1) a binding agreement . . .; (2) a loan agreement . . .;
         (3) an order required by law to be placed with an agency; (4) an order issued under a law
         authorizing purchases without advertising . . .; (5) a grant or subsidy payable . . .; (6) a liability
         that may result from pending litigation; (7) employment or services of persons or expenses of
         travel under law; (8) services provided by public utilities; or (9) other legal liability of the
         Government against an available appropriation or fund.

OMB Circular A-11, Preparation, Submission, and Execution of the Budget, states that an obligation is a legally
binding agreement that will result in outlays that will occur either immediately or in the future. An obligation is
incurred when an order is placed or a contract is signed that requires the Government to make payments to the
public or to another Government agency.

The United States Standard General Ledger defines an undelivered order as “the amount of goods and/or services
ordered which have not been actually or constructively received.”

USMS Directive 5.1, Accounting for Commitments and Obligations, states, “no amount shall be recorded as an
obligation unless supported by documentary evidence of transactions authorized by law.” It also states that
“program managers are responsible for the accurate and timely accounting of their workplans’ commitments and
obligations,” and requires program managers to “ensure that a monthly review of their workplan obligation(s) is
performed.”

RECOMMENDATIONS

We recommend the USMS:

1.	 Continue coordinated efforts among Financial Services Division and USMS program offices to finalize and
    consistently implement policies and procedures for recording obligations and deobligations in a timely
    manner, and to ensure that accruals for goods and services provided but not paid for are properly calculated,
    recorded timely, and adequately supported. (Updated)

    Management Response:

    The USMS concurs. This year, the Financial Services Division (FSD) leadership conducted both District and
    Headquarters Program Office Administrative Officer (AO) Training, which served to inform and educate AOs on
    key business process changes; FY 2012 Office of the Inspector (OIG) audit readiness insights; the Unified
    Financial Management System (UFMS) integration and implementation updates; and key administrative and
    operational messages from Executive and Program Office Leadership. Quarterly Execution Reviews (QERs)
    were implemented by executive leadership with the Program Offices, focusing on operating plans versus
    spending in all areas, as well as monthly District reviews conducted by the FSD.

    In FY 2012, the FSD created a Transactional Analysis Team (TAT) to assist the USMS Management in identifying
    obligations that are either invalid, outdated, missing supporting documentation, or required assistance at both
    the District and Program Office level. The FSD’s Audit Coordination and Review (ACR) Team continued their
    support of District and Program Offices by also conducting visits of certain offices, and developing analytics
    related to Prisoner Housing, Prisoner Medical, ADT, and Court Security processes. This involved a targeted



                                                         - 28 -
    monthly and quarterly analysis and review of key District and Program Office transactions, with an emphasis
    on identifying and correcting issues related to the obligation and accrual of transactions. Accrual
    methodologies related to key areas were documented and validated. This team will continue to serve as an
    audit liaison, and will recommend and implement improvements in the funds management process.

    The FSD leadership implemented the centralization process for obligating and accruing Prisoner Housing and
    the Heritage Health Solutions (HHS) contracts, helping to ensure that the application of the financial
    management process were consistent, timely, supported, and manual entry errors were mitigated.

2.	 Enhance supervisory review and approval controls, including review of source documentation, calculations,
    and posting logic for accounts payable, obligations, and deobligation transactions. (Repeat)

    Management Response:

    The USMS concurs. The Financial Services Division’s (FSD) Audit Coordination and Review (ACR) Team
    continued their support of Program and District Offices. The ACR developed, documented, and
    disseminated a revised Open Obligation Review and Certification process focusing on high risk areas and
    obligations. Certification of the report was changed to reflect a higher level of management
    involvement to include Assistant Directors in the Headquarters Program Offices, and the Chief Deputy in
    the Districts.

    In FY 2013, the USMS Management will continue to ensure that enhanced supervisory reviews and
    approval controls are completed at a minimum quarterly, and discrepancies resolved timely. In
    addition, financial processes and procedures that can be realigned or eliminated to gain efficiencies and
    reduce redundancy are being assessed.

3.	 Continue efforts to review and modify financial management and accounting processes at district and
    headquarters program offices to: identify process, knowledge, and training gaps affecting the execution of
    and adherence to USMS directives, policies and procedures; implement corrective action to address the
    identified gaps; and develop and implement procedures for maintaining source documentation that can be
    easily retrieved for review and audit purposes. (Repeat)

    Management Response:

    The USMS concurs. In FY 2012, USMS Management made extensive progress in reviewing policies and
    procedures to ensure consistency, and prepare for the agency wide implementation of the Unified Financial
    Management System (UFMS) in FY 2013. Continuous reviews and monitoring of accounting processes and
    transactions at District and Headquarters Program offices were conducted. The successful implementation of
    preventive and detective controls strengthened the new processes and procedures for funds management. A
    comprehensive Standard Operating Procedure (SOP) was developed to help offices understand current
    procedures and locate relevant policies and other guidance. To complement the SOP, a Financial “Checklist”
    was created for the District Chiefs to assist with ensuring integrity and compliance in key financial areas.
    Building on this success in FY 2013 will become a cornerstone for better financial management and mission
    support.


                                           *        *        *        *




                                                     - 29 -
We provide the current status of open recommendations from prior years in the following Exhibit.

This report is intended solely for the information and use of USMS’s management, DOJ Office of the Inspector
General, OMB, U.S. Government Accountability Office, and the U.S. Congress; it is not intended to be and should
not be used by anyone other than these specified parties.


COTTON & COMPANY LLP




Alan Rosenthal, CPA, CFE
Partner

November 5, 2012
Alexandria, Virginia




                                                    - 30 -
                                                                                                          EXHIBIT

                         STATUS OF PRIOR YEARS’ FINDINGS AND RECOMMENDATIONS

As required by Government Auditing Standards issued by the Comptroller General of the United States, and by
OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended, we have reviewed the
status of prior years’ findings and recommendations. The following table provides our assessment of the progress
the USMS has made in correcting the previously identified significant deficiencies. We also provide the Office of
the Inspector General report number where the deficiency was reported, our recommendation for improvement,
and the status of the recommendation as of the end of fiscal year 2012.

                     Significant
    Report                                              Recommendation                              Status
                     Deficiency
 Annual          Funds                Recommendation No. 2: Enhance supervisory                    In Process
 Financial       Management           review and approval controls, including review of        (Fiscal Year 2012
 Statements      Controls Need        source documentation, calculations, and posting          Recommendation
 Fiscal Year     Improvement          logic for accounts payable, obligations, and                   No. 2)
 2010 Report                          deobligation transactions.
 No. 11-10
                                      Recommendation No. 5: Review financial                       In Process
                                      management and accounting processes in place at          (Fiscal Year 2012
                                      district offices to identify process, knowledge and      Recommendation
                                      training gaps affecting the execution of and                   No. 3)
                                      adherence to the USMS directives and policies;
                                      implement corrective action to address the identified
                                      gaps; and develop and implement procedures for
                                      maintaining source documentation that can be easily
                                      retrieved for review and audit purposes.



 Annual          Funds                Recommendation No. 1: Continue coordinated                   In Process
 Financial       Management           efforts among the ACR team, Financial Services              (Updated by
 Statements      Controls Need        Division, and USMS program offices to finalize and        Fiscal Year 2012
 Fiscal Year     Improvement          consistently implement policies and procedures for       Recommendation
 2011 Report                          recording obligations and deobligations in a timely            No. 1)
 No. 12-15                            manner, and to ensure that accruals for goods and
                                      services provided but not paid for are properly
                                      calculated, recorded timely, and adequately
                                      supported.

                                      Recommendation No. 3: Review and update policies            Completed
                                      and procedures for the use of purchase cards to pay
                                      recurring charges, including procedures to ensure
                                      that accruals are recorded for goods and services
                                      received, and that there is an adequate audit trail to
                                      support undelivered order and accounts payable
                                      balances.




                                                    - 31 -
This page left intentionally blank.
	




              - 32 -
                         INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS


Inspector General
United States Department of Justice


Director
United States Marshals Service
United States Department of Justice


We have audited the Consolidated Balance Sheets of the United States Marshals Service (USMS), a component of
the United States Department of Justice (DOJ), as of September 30, 2012 and 2011, and the related Consolidated
Statements of Net Cost, Consolidated Statements of Changes in Net Position, and Combined Statements of
Budgetary Resources for the years then ended, and have issued our report thereon dated November 5, 2012. We
conducted our audits in accordance with auditing standards generally accepted in the United States of America;
standards applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements, as amended.

USMS’s management is responsible for complying with laws, regulations, and contract agreements applicable to
the USMS. As part of obtaining reasonable assurance about whether USMS’s fiscal year 2012 financial statements
are free of material misstatement, we performed tests of its compliance with certain provisions of laws,
regulations, and contract agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain provisions of other laws and regulations specified in
OMB Bulletin No. 07-04, including the provisions referred to in Section 803(a) of the Federal Financial
Management Improvement Act of 1996 (FFMIA). However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion. The results of
our tests disclosed instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards and OMB Bulletin No. 07-04, as described in the following paragraphs.

FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT OF 1996 (FFMIA) (REPEAT)

Under FFMIA, we are required to report whether USMS’s financial management systems substantially comply with
federal financial management system requirements, applicable federal accounting standards, and application of
the United States Standard General Ledger at the transaction level. To meet this requirement, we performed tests
of compliance with FFMIA Section 803(a) requirements.

The results of our tests of FFMIA disclosed instances in which USMS’s financial management systems did not
substantially comply with the first requirement discussed in the preceding paragraph.

    •	   Federal Financial Management System Requirements: USMS’s financial management system,
         Standardized Tracking Accounting and Reporting System (STARS), does not meet federal financial




                                                    - 33 -
         management system requirements established in OMB Circular No. A-127, Financial Management
         Systems, because STARS lacks integrated subsidiary records to support certain material account balances.
         Accordingly, the USMS must rely on manually-prepared subsidiary ledgers and ad-hoc business processes
         to generate financial reports.

We make no recommendation because this deficiency should be corrected with the implementation of a DOJ
Unified Financial Management System at the USMS in fiscal year 2013.

Management Response:

The USMS concurs. STARS is an antiquated financial system with significant challenges with respect to FFMIA
requirements. The USMS implemented the Department’s Unified Financial Management System (UFMS) in
October 2012, for all FY 2013 financial activities. This should alleviate findings relative to Federal Financial
Management System Requirements.


This report is intended solely for the information and use of USMS’s management, DOJ Office of the Inspector
General, OMB, U.S. Government Accountability Office, and the U.S. Congress; it is not intended to be and should
not be used by anyone other than these specified parties.


COTTON & COMPANY LLP




Alan Rosenthal, CPA, CFE
Partner

November 5, 2012
Alexandria, Virginia




                                                      - 34 -
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



    PRINCIPAL FINANCIAL STATEMENTS

          AND RELATED NOTES


      See Independent Auditors’ Report on Financial Statements




                              - 35 -
This page left intentionally blank.
	




              - 36 -
                                                          U.S. Department of Justice

                                                       United States Marshals Service

                                                         Consolidated Balance Sheets

                                                      As of September 30, 2012 and 2011


Dollars in Thousands                                                                   2012            2011

ASSETS (Note 2)
   Intragovernmental
        Fund Balance with U.S. Treasury (Note 3)                               $    488,186   $     562,246
        Accounts Receivable (Note 4)                                                145,641         168,560
        Other Assets (Note 7)                                                         7,093          15,506
   Total Intragovernmental                                                          640,920         746,312

   Accounts Receivable (Note 4)                                                          29               35
   Inventory and Related Property (Note 5)                                            2,742            3,060
   General Property, Plant and Equipment, Net (Note 6)                              265,904          264,246
   Advances and Prepayments                                                              47                -
   Other Assets (Note 7)                                                                184              184
Total Assets                                                                   $   909,826    $   1,013,837


LIABILITIES (Note 8)
   Intragovernmental
        Accounts Payable                                                       $     25,874   $       31,314
        Accrued Federal Employees' Compensation Act Liabilities                      16,753           15,912
        Other Liabilities (Note 10)                                                  12,439           14,538
   Total Intragovernmental                                                           55,066           61,764

   Accounts Payable                                                                 244,011         354,200
   Actuarial Federal Employees' Compensation Act Liabilities                         93,617          86,365
   Accrued Payroll and Benefits                                                      36,317          33,239
   Accrued Annual and Compensatory Leave Liabilities                                 43,258          43,940
   Other Liabilities (Note 10)                                                        8,532          12,071
Total Liabilities                                                              $   480,801    $    591,579

Contingencies and Commitments (Note 11)

NET POSITION
   Unexpended Appropriations - All Other Funds                                 $    259,570   $     257,093
   Cumulative Results of Operations - All Other Funds                               169,455         165,165
Total Net Position                                                             $   429,025    $    422,258

Total Liabilities and Net Position                                             $   909,826    $   1,013,837




United States Marshals Service
The accompanying notes are an integral part of these financial statements.


                                                            - 37 -
                                                                 U.S. Department of Justice

                                                               United States Marshals Service

                                                            Consolidated Statements of Net Cost

                                                  For the Fiscal Years Ended September 30, 2012 and 2011


Dollars in Thousands

                                                Gross Costs                                              Less: Earned Revenues                        Net Cost of
                          Intra-                 With the                                  Intra-               With the                              Operations
             FY        governmental               Public                Total           governmental              Public             Total             (Note 12)

Goal 1:     2012       $         4,794      $            -        $             4,794   $            -        $            -     $           -    $          4,794
            2011       $         6,484      $            -        $             6,484   $            -        $            -     $           -    $          6,484

Goal 2:     2012               32,637                    -                  32,637                   -                     -                 -              32,637
            2011               30,396                    -                  30,396                   -                     -                 -              30,396

Goal 3:     2012              544,969              2,609,317              3,154,286            1,537,097                 6,548        1,543,645           1,610,641
            2011              546,964              2,627,882              3,174,846            1,581,441                 2,519        1,583,960           1,590,886

Total       2012       $     582,400        $     2,609,317       $     3,191,717       $    1,537,097        $          6,548   $   1,543,645    $     1,648,072
            2011       $     583,844        $     2,627,882       $     3,211,726       $    1,581,441        $          2,519   $   1,583,960    $     1,627,766



Goal 1    Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
Goal 2    Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
Goal 3    Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal,
          State, Local, Tribal, and International Levels




United States Marshals Service
The accompanying notes are an integral part of these financial statements.


                                                                           - 38 -
                                                       U.S. Department of Justice

                                                     United States Marshals Service

                                          Consolidated Statements of Changes in Net Position

                                        For the Fiscal Years Ended September 30, 2012 and 2011


    Dollars in Thousands                                                               2012               2011




    Unexpended Appropriations
      Beginning Balances                                                     $     257,093      $     328,900

        Budgetary Financing Sources
          Appropriations Received                                                  1,189,000          1,142,388
          Appropriations Transferred-In/Out                                          416,211            388,191
          Other Adjustments                                                           (2,200)            (2,285)
          Appropriations Used                                                     (1,600,534)        (1,600,101)

        Total Budgetary Financing Sources                                             2,477           (71,807)

        Unexpended Appropriations                                            $     259,570      $     257,093

    Cumulative Results of Operations
      Beginning Balances                                                     $     165,165      $     137,022

        Budgetary Financing Sources
          Appropriations Used                                                      1,600,534          1,600,101

        Other Financing Sources
          Transfers-In/Out Without Reimbursement                                         58                162
          Imputed Financing from Costs Absorbed
            by Others (Note 13)                                                      51,770             55,646

        Total Financing Sources                                                  1,652,362          1,655,909

        Net Cost of Operations                                                   (1,648,072)        (1,627,766)
        Net Change                                                                    4,290             28,143

        Cumulative Results of Operations                                     $     169,455      $     165,165

    Net Position                                                             $     429,025      $     422,258




United States Marshals Service
The accompanying notes are an integral part of these financial statements.


                                                            - 39 -
                                                       U.S. Department of Justice

                                                     United States Marshals Service

                                             Combined Statements of Budgetary Resources

                                        For the Fiscal Years Ended September 30, 2012 and 2011


Dollars in Thousands                                                                         2012              2011

Budgetary Resources:
     Unobligated Balance, Brought Forward, October 1                                $      90,397     $     133,375
     Recoveries of Prior Year Unpaid Obligations                                            54,620            64,819
     Other Changes in Unobligated Balance                                                   (7,632)          (21,395)
     Unobligated Balance from Prior Year Budget Authority, Net                             137,385           176,799
     Appropriations (discretionary and mandatory)                                        1,610,644         1,549,689
     Spending Authority from Offsetting Collections (discretionary and mandatory)        1,538,614         1,596,290
 Total Budgetary Resources                                                          $   3,286,643     $   3,322,778

Status of Budgetary Resources:
    Obligations Incurred (Note 14)                                                       3,184,684         3,232,381
    Unobligated Balance, End of Period:
          Apportioned                                                                      61,752            57,730
          Unapportioned                                                                    40,207            32,667
    Total Unobligated Balance - End of Period                                             101,959            90,397
 Total Status of Budgetary Resources:                                               $   3,286,643     $   3,322,778

Change in Obligated Balance:
   Obligated Balance, Net - Brought Forward, October 1
         Unpaid Obligations, Gross                                                  $      648,610    $      708,551
         Less: Uncollected Customer Payments from Federal Sources                          188,832           165,214
              Total Obligated Balance, Net - Brought Forward, October 1                    459,778           543,337
     Obligations Incurred                                                                3,184,684         3,232,381
     Less: Outlays, Gross                                                                3,240,907         3,227,503
     Change in Uncollected Customer Payments from Federal Sources                           28,761           (23,618)
     Less: Recoveries of Prior Year Unpaid Obligations                                      54,620            64,819

     Obligated Balance, Net - End of Period
         Unpaid Obligations, Gross                                                        537,767           648,610
         Less: Uncollected Customer Payments from Federal Sources                         160,071           188,832
     Total Obligated Balance, Net - End of Period                                   $    377,696      $    459,778

 Budgetary Authority and Outlays, Net:
    Budgetary Authority, Gross (discretionary and mandatory)                             3,149,258         3,145,979
    Less: Actual Offsetting Collections (discretionary and mandatory)                    1,567,371         1,572,672
    Change in Uncollected Customer Payments from Federal Sources                            28,761           (23,618)
         (discretionary and mandatory)
    Budget Authority, Net (discretionary and mandatory)                             $   1,610,648     $   1,549,689

     Outlays, Gross (discretionary and mandatory)                                   $    3,240,907    $    3,227,503
     Less: Actual Offsetting Collections (discretionary and mandatory)                   1,567,371         1,572,672
     Agency Outlays, Net (discretionary and mandatory)                              $   1,673,536     $   1,654,831




United States Marshals Service
The accompanying notes are an integral part of these financial statements.


                                                            - 40 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 1. Summary of Significant Accounting Policies

          A. Reporting Entity
          The United States Marshals Service (USMS) is an entity of the Department of Justice (DOJ)
          and functions to facilitate the following DOJ strategic goals as presented in the DOJ Strategic
          Plan:
               “Prevent Terrorism and Promote the Nation’s Security Consistent with the Rule of Law”
               “Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law”
               “Ensure the Support and Fair, Impartial, Efficient, and Transparent Administration of
               Justice at the Federal, State, Local, Tribal, and International Levels”
          The financial statements of the USMS have been prepared to reflect the activity of these core
          functions from operations in all 94 Districts and Headquarters.
          The USMS receives funding needed to support its programs through Congressional
          appropriations. Both annual and multi-year appropriations are used, within statutory limits,
          for operating and capital expenditures. The USMS appropriations include Salaries and
          Expenses, and Construction. The USMS also receives an appropriation transfer from the
          Administrative Office of the U.S. Courts (AOUSC) for court security. The USMS also has a
          Revolving Fund called the Justice Prisoner and Alien Transportation System (JPATS). The
          Federal Prisoner Detention program is entirely funded through a reimbursable agreement
          with the Office of the Federal Detention Trustee (OFDT).
          B. Basis of Presentation
          These financial statements have been prepared from the books and records of the USMS in
          accordance with United States generally accepted accounting principles issued by the Federal
          Accounting Standards Advisory Board (FASAB) and presentation guidelines in the Office of
          Management and Budget (OMB) Circular A-136, Financial Reporting Requirements. These
          financial statements are different from the financial reports prepared pursuant to OMB
          directives, which are used to monitor and control the use of USMS budgetary resources. To
          ensure that the USMS financial statements are meaningful at the entity level and to enhance
          reporting consistency within the Department, Other Assets and Other Liabilities as defined
          by OMB Circular A-136 have been disaggregated on the balance sheet. These include
          Advances and Prepayments with the Public, Accrued Federal Employees’ Compensation Act
          (FECA) Liabilities, Accrued Payroll and Benefits, and Accrued Annual and Compensatory
          Leave Liabilities.
          C. Basis of Consolidation
          The consolidated/combined financial statements include the accounts of the USMS. All
          significant proprietary intra-entity transactions and balances have been eliminated in
          consolidation. The Statements of Budgetary Resources are combined statements for the
          fiscal years (FYs) ended September 30, 2012 and 2011, and as such, intra-entity transactions
          have not been eliminated.
United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 41 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 1. Summary of Significant Accounting Policies (continued)
          D. Basis of Accounting
          Transactions are recorded on the accrual and budgetary bases of accounting. Under the
          accrual basis, revenues are recorded when earned and expenses are recorded when incurred,
          regardless of when cash is exchanged. Under the budgetary basis, however, funds
          availability is recorded based upon legal considerations and constraints. As a result, certain
          line items on the proprietary financial statements may not equal similar line items on the
          budgetary financial statements.
          E. Non-Entity Assets
          Non-entity assets are comprised of deposit funds, which temporarily hold receipts for service
          of process fees and seized assets of pending civil cases.
          F. Fund Balance with U.S. Treasury
          Fund Balance with U.S. Treasury (FBWT) is the aggregate amount of the entity's accounts
          with the U.S. Treasury for which the entity is authorized to make expenditures and pay
          liabilities. FBWT also includes Other Fund Types (deposit funds). These are non-entity
          assets for which the entity is not authorized to make expenditures and pay liabilities. The
          Revolving Fund is a separate account involving reimbursement for JPATS prisoner
          movements.
          G. Accounts Receivable
          The USMS expects an immaterial amount of uncollectible Accounts Receivable based upon
          data from previous years. Most of the Accounts Receivable are due from other Federal
          agencies. As a result, an allowance for doubtful accounts was not established. Accounts
          Receivable written off are a result of management’s specific identification of amounts
          determined to be uncollectible.
          H. Inventory and Related Property
          Operating inventory includes equipment and supplies used for the repair of airplanes. The
          USMS utilizes the first-in, first-out (FIFO) method as the basis for valuation of these items.
          I. General Property, Plant, and Equipment
          Acquisitions of $25 and over ($100 for airplanes and leasehold improvements) are
          capitalized and depreciated/amortized based on the historical cost using the straight-line
          method over the estimated useful lives of the assets, which range from 5 to 25 years. Other
          equipment is expensed when purchased or included in inventory if used for the repair of
          airplanes. Normal repairs and maintenance are expensed as incurred.
          Total capital lease obligations are determined by calculating the present value of the lease
          payments at the inception of the lease. The interest rate used is the nominal discount rate in
          Appendix C of OMB Circular A-94, Guidelines and Discount Rates for Benefit-Cost
          Analysis of Federal Programs, at the inception of the lease.

United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 42 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 1. Summary of Significant Accounting Policies (continued)
       J. Advances and Prepayments
          Advances and Prepayments consist of intragovernmental advances provided to Federal Prison
          Industries, Inc. for the equipping of vehicles and equipment. Advances provided to the Public
          include travel advances issued to Federal employees for relocation travel costs.
          K. Liabilities
          Liabilities represent the amount of monies, or other resources, that are likely to be paid by the
          USMS as the result of a transaction or event that has already occurred. However, no liability
          can be paid by the USMS absent proper budget authority. Liabilities for which an
          appropriation has not been enacted are classified as liabilities not covered by budgetary
          resources, and there is no certainty that corresponding future appropriations will be enacted.
          The USMS maintains liabilities with the Public for deposit funds, which temporarily hold
          receipts for service of process fees and seized assets of pending civil cases. These are
          included as a part of Liability for Nonfiduciary Deposit Funds and Undeposited Collections
          on the Balance Sheet.
          L. Contingencies and Commitments
          The USMS is party to various administrative proceedings, legal actions, and claims. The
          balance sheet includes an estimated liability for those legal actions where management and
          the Chief Counsel consider adverse decisions “probable” and amounts are reasonably
          estimable. Legal actions where management and the Chief Counsel consider adverse
          decisions “probable” or “reasonably possible” and the amounts are reasonably estimable are
          disclosed in Note 11, Contingencies and Commitments. However, there are cases where
          amounts have not been accrued or disclosed because the amounts of the potential loss cannot
          be estimated or the likelihood of an unfavorable outcome is considered “remote”.
          M. Annual, Sick, and Other Leave
          Accrued Annual and Compensatory Leave Liabilities are expected to be paid from future
          years' appropriations. Federal employees' annual leave is accrued as it is earned, and the
          accrual is reduced annually for actual leave taken and increased for leave earned. Each year,
          the accrued annual leave balance is adjusted to reflect the latest pay rates. Sick leave is
          expensed as taken.
          N. Interest on Late Payments
          The USMS on occasion incurs interest penalties on late payments. All such interest penalties
          are paid to the respective vendor in accordance with the guidelines mandated by the Prompt
          Payment Act, (P.L. 97-177), as amended.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 43 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 1. Summary of Significant Accounting Policies (continued)
       O. Retirement Plans
          With few exceptions, employees hired before January 1, 1984 are covered by the Civil
          Service Retirement System (CSRS) and employees hired on or after that date are covered by
          the Federal Employees Retirement System (FERS).
          For employees covered by the CSRS, the USMS contributes 7.0 percent of the employee's
          gross pay for normal retirement or 7.5 percent for law enforcement retirement. For
          employees covered by the FERS, the USMS contributes 11.9 percent of the employee's gross
          pay for regular employees, and 26.3 percent of the employee's gross pay for law enforcement
          retirement. All employees are eligible to contribute to the Federal Thrift Savings Plan (TSP).
          For those employees covered by the FERS, a TSP account is automatically established, and
          the USMS is required to contribute an additional 1.0 percent of gross pay to this account and
          match employee contributions up to an additional 4.0 percent of gross pay. No matching
          contributions are made to the TSP accounts established by the CSRS employees. The USMS
          does not report CSRS or FERS assets, accumulated plan benefits, or unfunded liabilities, if
          any, which may be applicable to its employees. Such reporting is the responsibility of the
          Office of Personnel Management (OPM).
          P. Federal Employee Compensation Benefits
          The FECA provides income and medical cost protection to cover Federal civilian employees
          injured on the job, employees who have incurred a work-related occupational disease, and
          beneficiaries of employees whose death is attributable to a job-related injury or occupational
          disease. The total FECA liability consists of an actuarial and an accrued portion as discussed
          below.
          Actuarial Liability: The U.S. Department of Labor (DOL) calculates the liability of the
          Federal Government for future compensation benefits, which includes the expected liability
          for death, disability, medical, and other approved costs. The liability is determined using the
          paid-losses extrapolation method calculated over the next 37-year period. This method
          utilizes historical benefit payment patterns related to a specific incurred period to predict the
          ultimate payments related to that period. The projected annual benefit payments are
          discounted to present value. The resulting Federal Government liability is then distributed by
          agency. The Department’s portion of this includes the estimated future cost of death
          benefits, workers’ compensation, medical, and miscellaneous cost for approved
          compensation cases for its employees. The Department’s liability is further allocated to the
          component reporting entities based on actual payments made to the FECA Special Benefits
          Fund (SBF) for the three prior years as compared to the total Department’s payments made
          over the same period.
          The FECA actuarial liability is recorded for reporting purposes only. This liability
          constitutes an extended future estimate of cost, which will not be obligated against budgetary
          resources until the fiscal year in which the related funds are billed to the USMS. The cost
          associated with this liability may not be met by the USMS without further appropriation
          action.
United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 44 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 1. Summary of Significant Accounting Policies (continued)
       Accrued Liability: The accrued FECA liability owed to the DOL is the difference between
       the FECA benefits paid by the FECA SBF and the agency’s actual cash payments to the
       FECA SBF. For example, the FECA SBF will pay benefits on behalf of an agency through
       the current year. However, most agencies’ actual cash payments to the FECA SBF for the
       current FY will reimburse the FECA SBF for benefits paid through a prior FY. The
       difference between these two amounts is the accrued FECA liability.
          Q. Intragovernmental Activity
          Intragovernmental costs and exchange revenue represent transactions made between two
          reporting entities within the Federal Government. Costs and earned revenues with the Public
          represent exchange transactions made between the reporting entity and a non-Federal entity.
          The classification of revenue or cost as “intragovernmental” or “with the Public” is defined
          on a transaction-by-transaction basis. The purpose of this classification is to enable the
          Federal Government to prepare consolidated financial statements, not to match Public and
          intragovernmental revenue with the costs incurred to produce Public and intragovernmental
          revenue.
          R. Revenues and Other Financing Sources
          The USMS receives funding needed to support its programs through appropriations.
          Appropriations are recognized as a financing source when the funding is appropriated. The
          USMS also reports revenue earned for services performed on a reimbursable basis with other
          Federal agencies and components of the DOJ. The revenue for these services is earned when
          the work is performed. Moreover, the USMS reports appropriations transferred from other
          Federal entities as a financing source.
          S. 	Earmarked Funds
          Statement of Federal Financial Accounting Standards (SFFAS) No. 27, Identifying and
          Reporting Earmarked Funds defines ‘earmarked funds’ as being financed by specifically
          identified revenues, often supplemented by other financing sources, which remain available
          over time. These specifically identified revenues and other financing sources are required by
          statute to be used for designated activities, benefits, or purposes, and must be accounted for
          separately from the Federal Government’s general revenues. The three required criteria for
          an earmarked fund are:
                    1.	 A statute committing the Federal Government to use specifically identified
                        revenues and other financing sources only for designated activities, benefits, or
                        purposes;
                    2.	 Explicit authority for the earmarked fund to retain revenues and other financing
                        sources not used in the current period for future use to finance the designated
                        activities, benefits, or purposes; and



United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 45 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 1. Summary of Significant Accounting Policies (continued)
                    3.	 A requirement to account for and report on the receipt, use, and retention of the
                        revenues and other financing sources that distinguishes the earmarked fund from
                        the Federal Government’s general revenues.
          At the USMS, there are no funds that meet the definition of an earmarked fund.
          T. 	Allocation Transfer of Appropriations
          The USMS is a party to allocation transfers with another Federal agency as a receiving
          (child) entity. Allocation transfers are legal delegations by one department of its authority to
          obligate budget authority and outlay funds to another department. Generally, all financial
          activity related to these allocation transfers (e.g., budget authority, obligations, outlays) is
          reported in the financial statements of the parent entity, from which the underlying legislative
          authority, appropriations and budget apportionments are derived. An exception to this
          general rule affecting the USMS includes the Funds transferred from the Judicial Branch to
          the USMS for court security costs. Per OMB guidance, the USMS will report all activity
          relative to these allocation transfers in the USMS financial statements.
          The USMS uses these allocation transfers to pay for costs associated with the protective
          guard services – Court Security Officers at United States courthouses and other facilities
          housing Federal court operations. These costs include their salaries (paid by contracts),
          equipment, and supplies. The allocation transfers occur periodically throughout the fiscal
          year.
          U. Tax Exempt Status
          As an agency of the Federal Government, the USMS is exempt from all income taxes
          imposed by any governing body whether it be a Federal, state, commonwealth, local, or
          foreign government.
          V. Use of Estimates
          The preparation of financial statements requires management to make certain estimates and
          assumptions that affect the reported amounts of assets and liabilities and the reported
          amounts of revenue and expenses during the reporting period. Actual results could differ
          from those estimates.
          W. Reclassifications
          The FY 2011 financial statements were reclassified to conform to the FY 2012 Departmental
          financial statement presentation requirements. Changes to the presentation of the Combined
          and Combining Statements of Budgetary Resources were made, in accordance with guidance
          provided in OMB Circular A-136, Financial Reporting Requirements and as such, activity
          and balances reported on the FY 2011 Combined and Combining Statements of Budgetary
          Resources have been reclassified to conform to the presentation in the current year. Certain
          other prior year amounts have also been reclassified to conform with the current year
          presentation. The reclassifications had no material effect on total assets, liabilities, net
          position, change in net position or budgetary resources as previously reported.
United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 46 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 1. Summary of Significant Accounting Policies (continued)
          X. Subsequent Events
          Subsequent events and transactions occurring after September 30, 2012 through the date of
          the auditors’ opinion have been evaluated for potential recognition or disclosure in the
          financial statements. The date of the auditors’ opinion also represents the date that the
          financial statements were available to be issued.

Note 2. Non-Entity Assets

            As of September 30, 2012 and 2011
                                                                                    2012                     2011
            Intragovernmental
              Fund Balance with U.S. Treasury                               $         8,531          $          12,071
                Total Non-Entity Assets                                               8,531                     12,071
                Total Entity Assets                                                 901,295                  1,001,766
                Total Assets                                                $       909,826          $       1,013,837


Note 3. Fund Balance with U.S. Treasury

             As of September 30, 2012 and 2011
                                                                                      2012                   2011
             Fund Balances
               Revolving Funds                                                  $           36,488       $     33,882
               General Funds                                                               443,167            516,293
               Other Fund Types                                                              8,531             12,071
                Total Fund Balances with U.S. Treasury                          $          488,186       $    562,246

             Status of Fund Balances
               Unobligated Balance - Available                                  $           61,752       $     57,730
               Unobligated Balance - Unavailable                                            40,207             32,667
               Obligated Balance not yet Disbursed                                         377,696            459,778
               Other Funds (With)/Without Budgetary Resources                                8,531             12,071
                  Total Status of Fund Balances                                 $          488,186       $    562,246




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 47 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 3. Fund Balance with U.S. Treasury (continued)
Other Funds (With)/Without Budgetary Resources and Other Fund Types include non-entity assets.
Non-entity assets are comprised of deposit funds, which temporarily hold receipts for service of
process fees and seized assets of pending civil cases. It also includes a rescission of prior year
funding.

Note 4. Accounts Receivable

               As of September 30, 2012 and 2011
                                                                                    2012               2011
               Intragovernmental
                 Accounts Receivable                                          $ 145,641            $       168,560

               With the Public
                Accounts Receivable                                                  29                         35
                  Total Accounts Receivable                                   $ 145,670            $       168,595

Intragovernmental accounts receivable primarily consists of reimbursable revenue with OFDT.

Note 5. Inventory and Related Property

           As of September 30, 2012 and 2011
                                                                                      2012                  2011

           Operating Materials and Supplies
            Held for Current Use                                                $          2,742       $        3,060




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 48 -
                                                              U.S. Department of Justice

                                                            United States Marshals Service

                                                           Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted



Note 6. General Property, Plant and Equipment, Net

    As of September 30, 2012

                                                                           Accumulated
                                                      Acquisition Cost     Depreciation     Net Book Value   Useful Life
    Construction in Progress                          $         40,516    $          -      $       40,516      N/A
    Buildings, Improvements, and
      Renovations                                                 3,422           (3,422)              -      12 years
    Aircraft                                                     29,000          (14,745)           14,255   7-25 years
    Vehicles                                                     30,988          (20,212)           10,776   5-10 years
    Equipment                                                    47,869          (28,801)           19,068   5-15 years
    Leasehold Improvements                                      448,235         (266,946)          181,289    12 years
    Total                                              $        600,030   $     (334,126)   $      265,904

During the fiscal year ended September 30, 2012, the USMS purchased $29,646 in capitalized
property from Federal Sources and $11,033 from the Public.

    As of September 30, 2011

                                                                           Accumulated
                                                      Acquisition Cost     Depreciation     Net Book Value   Useful Life
    Construction in Progress                          $         40,485    $          -      $       40,485      N/A
    Buildings, Improvements, and
      Renovations                                                 3,422           (3,422)              -      12 years
    Aircraft                                                     27,327          (13,285)           14,042   7-25 years
    Vehicles                                                     30,142          (20,622)            9,520   5-10 years
    Equipment                                                    45,913          (25,163)           20,750   5-15 years
    Assets Under Capital Lease                                   10,727          (10,727)              -      20 years
    Leasehold Improvements                                      418,080         (238,631)          179,449    12 years
    Total                                              $        576,096   $     (311,850)   $      264,246

During the fiscal year ended September 30, 2011, the USMS purchased $23,236 in capitalized
property from Federal Sources and $24,371 from the Public.
The USMS has no restrictions on the use or convertibility of general PP&E.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                 - 49 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 7. Other Assets

              As of September 30, 2012 and 2011
                                                                                 2012                 2011
              Intragovernmental
                Advances and Prepayments                                     $        7,093       $       15,506


              Other Assets With the Public                                              184                  184
               Total Other Assets                                            $        7,277       $       15,690


Other Assets With the Public is comprised of a collection of historical items such as jewelry, badges,
and a carpet. The collection was appraised in November 2002 to provide the USMS with a basis for
these items.

Note 8. Liabilities not Covered by Budgetary Resources

         As of September 30, 2012 and 2011
                                                                                      2012                 2011
         Intragovernmental
           Accrued FECA Liabilities                                               $      16,753       $      15,912
           Other Unfunded Employment Related Liabilities                                     88                  77
             Total Intragovernmental                                                     16,841              15,989

         With the Public
          Actuarial FECA Liabilities                                                     93,617              86,365
          Accrued Annual and Compensatory Leave Liabilities                              43,258              43,940
            Total With the Public                                                       136,875             130,305
            Total Liabilities not Covered by Budgetary Resources                        153,716             146,294
            Total Liabilities Covered by Budgetary Resources                            327,085             445,285
            Total Liabilities                                                     $     480,801       $     591,579

Liabilities not Covered by Budgetary Resources result from the receipt of goods and services, or the
occurrence of eligible events, for which appropriations, revenues, or other financing sources
necessary to pay the liabilities have not yet been made available through Congressional
appropriation.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 50 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 9. Leases

          As of September 30, 2012 and 2011

          Capital Leases                                                         2012                      2011

          Summary of Assets Under Capital Lease
            Land and Buildings                                             $                -          $      10,727
            Accumulated Amortization                                                        -                (10,727)
             Total Assets Under Capital Lease (Note 6)                     $            -              $         -


The USMS had one capital lease for an aircraft hangar in Oklahoma City, Oklahoma, which expired
in FY 2011 and was converted to an operating lease in FY 2012.

The USMS has significant operating leases with the U.S. General Services Administration for the
rental of office space and with commercial vendors for the use of aircraft. The USMS does not have
any future noncancelable operating leases.

Note 10. Other Liabilities

     As of September 30, 2012 and 2011
                                                                                                2012              2011
     Intragovernmental
       Employer Contributions and Payroll Taxes Payable                                     $    12,261      $     11,908
       Other Post-Employment Benefits Due and Payable                                                 90              194
       Other Unfunded Employment Related Liabilities                                                  88               77
       Advances from Others                                                                         -               2,359
         Total Intragovernmental                                                                 12,439            14,538

     With the Public
      Liability for Nonfiduciary Deposit Funds,
       and Undeposited Collections                                                                8,532            12,071
        Total With the Public                                                                     8,532            12,071
        Total Other Liabilities                                                             $    20,971      $     26,609


Non-current liabilities consist of future employee related expenses, such as accrued retirement
contributions, life insurance, and retiree health benefits.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 51 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 11. Contingencies and Commitments
Contingencies include various administrative proceedings, legal actions, and claims related to
contract disputes and employee and prisoner claims; see Note 1.L for more details. For legal actions
where management and the Chief Counsel consider adverse decisions “probable” or “reasonably
possible” and the amounts are reasonably estimable, information is disclosed below. The amounts as
of September 30, 2012 and 2011, are presented in the following table.

                                                                   Accrued             Estimated Range of Loss
                                                                   Liabilities         Lower            Upper
      As of September 30, 2012

              Reasonably Possible                                                  $       -          $     -

      As of September 30, 2011

              Reasonably Possible                                                  $     5,000        $ 10,000




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 52 -
                                                                                  U.S. Department of Justice

                                                                                United States Marshals Service

                                                                               Notes to the Financial Statements

                                                                             Dollars in Thousands, Except as Noted


Note 12. Net Cost of Operations by Suborganization

   For the Fiscal Year Ended September 30, 2012
                                                                                             Suborganizations
                                                            Justice Prisoner
                                                               and Alien                                    Federal               All
                                                             Transportation                                Prisoner              Other
                                                                 System             Court Security         Detention             Funds              Eliminations          Consolidated

   Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law

     Gross Cost                                              $           -      $                -     $           -     $                4,794 $              -      $           4,794
     Net Cost of Operations                                              -                       -                 -                      4,794                -                  4,794

   Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law

     Gross Cost                                                          -                       -                 -                     32,637                -                 32,637
     Net Cost of Operations                                              -                       -                 -                     32,637                -                 32,637

   Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal, State, Local, Tribal, and International Levels

     Gross Cost                                                       53,077                403,725          1,435,579              1,261,997                  (92)           3,154,286
     Less: Earned Revenue                                             57,631                    -            1,435,579                 50,527                  (92)           1,543,645
     Net Cost of Operations                                           (4,554)               403,725                -                1,211,470                  -              1,610,641

   Net Cost of Operations                                    $        (4,554) $             403,725 $              -     $          1,248,901 $                -      $       1,648,072



   For the Fiscal Year Ended September 30, 2011
                                                                                             Suborganizations
                                                            Justice Prisoner
                                                               and Alien                                    Federal               All
                                                             Transportation                                Prisoner              Other
                                                                 System             Court Security         Detention             Funds              Eliminations          Consolidated

   Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law

     Gross Cost                                              $           -      $                -     $           -     $                6,484 $              -      $           6,484
     Net Cost of Operations                                              -                       -                 -                      6,484                -                  6,484

   Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law

     Gross Cost                                                          -                       -                 -                     30,396                -                 30,396
     Net Cost of Operations                                              -                       -                 -                     30,396                -                 30,396

   Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal, State, Local, Tribal, and International Levels

     Gross Cost                                                       60,547                 387,973         1,484,911              1,244,300               (2,885)           3,174,846
     Less: Earned Revenue                                             65,370                     -           1,484,911                 36,564               (2,885)           1,583,960
     Net Cost of Operations                                           (4,823)                387,973               -                1,207,736                  -              1,590,886

   Net Cost of Operations                                    $        (4,823) $              387,973 $             -     $          1,244,616 $                -      $       1,627,766




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                                        - 53 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 13. Imputed Financing from Costs Absorbed by Others
Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e. non-reimbursed and
under-reimbursed) portion of the full costs of goods and services received by the USMS from a
providing entity that is not part of the U.S. Department of Justice. In accordance with SFFAS No.
30, Inter-Entity Cost Implementation Amending SFFAS 4, Managerial Cost Accounting Standards
and Concepts, the material Imputed Inter-Departmental financing sources recognized by the USMS
are the cost of benefits for the Federal Employees Health Benefits Program (FEHB), the Federal
Employees’ Group Life Insurance Program (FEGLI), the Federal Pension plans that are paid by
other Federal entities, and any un-reimbursed payments made from the Treasury Judgment Fund on
behalf of the USMS. The Treasury Judgment Fund was established by the Congress and funded at
31 U.S.C. 1304 to pay in whole or in part the court judgments and settlement agreements negotiated
by the Department on behalf of agencies, as well as certain types of administrative awards.
Interpretation of Federal Financial Accounting Standards Interpretation No. 2, Accounting for
Treasury Judgment Fund Transactions, requires agencies to recognize liabilities and expenses when
unfavorable litigation outcomes are probable and the amount can be estimated and will be paid by
the Treasury Judgment Fund.
SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires that employing
agencies recognize the cost of pensions and other retirement benefits during their employees’ active
years of service. SFFAS No. 5 requires OPM to provide cost factors necessary to calculate cost.
OPM actuaries calculate the value of pension benefits expected to be paid in the future, and then
determine the total funds to be contributed by and for covered employees, such that the amount
calculated would be sufficient to fund the projected pension benefits. For employees covered by
CSRS, the cost factors are 29.8 percent of basic pay for regular, 50.9 percent law enforcement
officers, 23.2 percent regular offset, and 45.2 percent law enforcement officers offset. For
employees covered by Federal Employees Retirement System (FERS), the cost factors are 13.7
percent of basic pay for regular and 29.7 percent for law enforcement officers.
The cost to be paid by other agencies is the total calculated future costs, less employee and employer
contributions. In addition, the cost of other retirement benefits, which include health and life
insurance that are paid by other Federal entities, must also be recorded.
Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, Managerial Cost
Accounting Concepts and Standards for the Federal Government, are the unreimbursed portion of
the full costs of goods and services received by the USMS from a providing entity that is part of the
U.S. Department of Justice. Recognition is required for those transactions determined to be material
to the receiving entity. The determination of whether the cost is material requires considerable
judgment based on the specific facts and circumstances of each type of good or service provided.
SFFAS No. 4 also states that costs for broad and general support need not be recognized by the
receiving entity, unless such services form a vital and integral part of the operations or output of the
receiving entity. Costs are considered broad and general if they are provided to many, if not all,
reporting components and not specifically related to the receiving entity’s output. The USMS does
not have any imputed intra-departmental costs to be recognized.



United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 54 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 13. Imputed Financing from Costs Absorbed by Others (continued)

           For the Fiscal Years Ended September 30, 2012 and 2011
                                                                                           2012               2011
           Imputed Inter-Departmental Financing
             Treasury Judgment Fund                                                $         7,496        $         8,416
             Health Insurance                                                               28,979                 28,496
             Life Insurance                                                                    106                    103
             Pension                                                                        15,189                 18,631
               Total Imputed Inter-Departmental                                    $        51,770        $        55,646
               Total Imputed Financing                                             $        51,770        $        55,646


Note 14. Information Related to the Statement of Budgetary Resources
Apportionment Categories of Obligations Incurred:

                                                                                                                     Total
                                                                     Direct            Reimbursable               Obligations
                                                                    Obligations         Obligations                Incurred

     For the Fiscal Year Ended September 30, 2012
       Obligations Apportioned Under
         Category A                                             $      1,693,498       $      1,490,564       $      3,184,062
         Category B                                                          622                    -                      622
       Total                                                    $      1,694,120       $      1,490,564       $      3,184,684

     For the Fiscal Year Ended September 30, 2011
       Obligations Apportioned Under
         Category A                                             $      1,593,791       $      1,610,059       $      3,203,850
         Category B                                                       28,531                    -                   28,531
       Total                                                    $      1,622,322       $      1,610,059       $      3,232,381

The apportionment categories are determined in accordance with the guidance provided in Part 4
“Instructions on Budget Execution” of OMB Circular A-11, Preparation, Submission and Execution
of the Budget. Category A represents resources apportioned for calendar quarters. Category B
represents resources apportioned for other time periods; for activities, projects, and objectives or for
combination thereof.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 55 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 14. Information Related to the Statement of Budgetary Resources (continued)
Status of Undelivered Orders:
Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which have not
been actually or constructively received. This amount includes any orders which may have been
prepaid or advanced but for which delivery or performance has not yet occurred.



              As of September 30, 2012 and 2011
                                                                              2012                   2011

              UDO Obligations Unpaid                                     $      219,158          $    217,540
              UDO Obligations Prepaid/Advanced                                    7,140                15,506
               Total UDO                                                 $      226,298          $    233,046

Legal Arrangements Affecting Use of Unobligated Balances:
Unobligated balances represent the cumulative amount of budget authority that is not obligated and
that remains available for obligation based on annual legislative requirements and other enabling
authorities, unless otherwise restricted. The use of unobligated balances is restricted based on
annual legislation requirements and other enabling authorities. Funds are appropriated on an annual,
multi-year, and no-year basis. Appropriated funds shall expire on the last day of availability and are
no longer available for new obligations. Unobligated balances in unexpired fund symbols are
available in the next FY for new obligations unless some restrictions have been placed on those
funds by law. Amounts in expired fund symbols are not available for new obligations, but may be
used to adjust previously established obligations.
Statement of Budgetary Resources vs. the Budget of the United States Government:
The reconciliation as of September 30, 2012 is not presented, because the submission of the Budget
of the United States Government (Budget) for FY 2014, which presents the execution of the FY
2012 Budget, occurs after publication of these financial statements. The Department of Justice
Budget Appendix can be found on the OMB website (http://www.whitehouse.gov/omb/budget).




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 56 -
                                                               U.S. Department of Justice

                                                             United States Marshals Service

                                                            Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 14. Information Related to the Statement of Budgetary Resources (continued)

     For the Fiscal Year Ended September 30, 2011:
       (Dollars in Millions)                                                                       Distributed
                                                            Budgetary          Obligations         Offsetting             Net
                                                            Resources           Incurred            Receipts             Outlays

     Statement of Budgetary Resources (SBR)             $         3,323    $          3,232    $                 -   $        1,655

     Funds not Reported in the Budget
       Expired Funds                                                (41)                (16)                     -                -
       USMS Court Security Funds                                   (428)               (418)                     -             (407)

     Budget of the United States Government             $         2,854    $          2,798    $                 -   $        1,248


The Court Security Funds are transfer appropriations from the Judiciary Branch (See Note 1.T).
These transfers are accomplished through Nonexpenditure Transfer Authorizations.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                 - 57 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 15. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing)

 For the Fiscal Years Ended September 30, 2012 and 2011
                                                                                            2012                2011
  Resources Used to Finance Activities

     Budgetary Resources Obligated
       Obligations Incurred                                                             $   3,184,684       $   3,232,381
       Less: Spending Authority from Offsetting Collections and
           Recoveries                                                                       1,593,234           1,661,109
       Obligations Net of Offsetting Collections and Recoveries                             1,591,450           1,571,272
       Net Obligations                                                                      1,591,450           1,571,272

     Other Resources
        Transfers In/Out Without Reimbursement                                                     58                 162
        Imputed Financing from Costs Absorbed by Others (Note 13)                              51,770              55,646
        Net Other Resources Used to Finance Activities                                         51,828              55,808
  Total Resources Used to Finance Activities                                                1,643,278           1,627,080

  Resources Used to Finance Items not Part of the Net Cost of
     Operations
        Net Change in Budgetary Resources Obligated for Goods, Services,
            and Benefits Ordered but not Yet Provided                                             (1,092)         19,383
        Resources That Fund Expenses Recognized in Prior Periods (Note 16)                          (682)        (17,014)
        Resources That Finance the Acquisition of Assets                                         (40,679)        (47,928)
  Total Resources Used to Finance Items not Part of the Net Cost
     of Operations                                                                               (42,453)        (45,559)

  Total Resources Used to Finance Net Cost of Operations                                $   1,600,825       $   1,581,521

  Components of Net Cost of Operations That Will not Require
    or Generate Resources in the Current Period

     Components That Will Require or Generate Resources
       in Future Periods (Note 16)                                                      $          8,110    $      4,876

     Depreciation and Amortization                                                               39,543           38,387
     Revaluation of Assets or Liabilities                                                           855            1,730
     Other                                                                                       (1,261)           1,252
  Total Components of Net Cost of Operations That Will not
     Require or Generate Resources in the Current Period                                         47,247           46,245

  Net Cost of Operations                                                                $   1,648,072       $   1,627,766




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 58 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 16. Explanation of Differences Between Liabilities not Covered by Budgetary Resources
and Components of Net Cost of Operations Requiring or Generating Resources in Future
Periods

Liabilities that are not covered by realized budgetary resources and for which there is no certainty
that budgetary authority will be realized, such as the enactment of an appropriation, are considered
liabilities not covered by budgetary resources. These liabilities totaling $153,716 and $146,294 on
September 30, 2012 and 2011, respectively, are discussed in Note 8, Liabilities not Covered by
Budgetary Resources. Decreases in these liabilities result from current year budgetary resources that
were used to fund expenses recognized in prior periods. Increases in these liabilities represent
unfunded expenses that were recognized in the current period. These increases along with the
change in the portion of exchange revenue receivables from the Public, which are not considered
budgetary resources until collected, represent components of current period net cost of operations
that will require or generate budgetary resources in future periods. The changes in liabilities not
covered by budgetary resources and receivables generating resources in future periods are comprised
of the following:

     For the Fiscal Years Ended September 30, 2012 and 2011
                                                                                              2012           2011
     Resources that Fund Expenses Recognized in Prior Periods
      Decrease in Accrued Annual and Compensatory Leave Liabilities                       $      (682)   $          -
      Other
        Decrease in Contingent Liabilities                                                        -          (17,000)
        Decrease in Other Unfunded Employment Related Liabilities                                 -              (14)
          Total Other                                                                             -          (17,014)
          Total Resources that Fund Expenses Recognized in Prior Periods                  $      (682)   $   (17,014)

     Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
      Increase in Accrued Annual and Compensatory Leave Liabilities                    $       -         $     1,802
      (Increase)/Decrease in Exchange Revenue Receivable from the Public                          6               12
      Other
        Increase in Actuarial FECA Liabilities                                               7,252             2,875
        Increase in Accrued FECA Liabilities                                                   841               187
        Increase in Other Unfunded Employment Related Liabilities                                11              -
          Total Other                                                                        8,104             3,062
          Total Components of Net Cost of Operations That Will Require
            or Generate Resources in Future Periods                                    $     8,110       $     4,876




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 59 -
This page left intentionally blank.
	




              - 60 -
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



       REQUIRED SUPPLEMENTARY

            INFORMATION


            (UNAUDITED)





                - 61 -
                                                                                   U.S. Department of Justice

                                                                                 United States Marshals Service

                                                                             Required Supplementary Information

                                                                         Combining Statement of Budgetary Resources

                                                                            Broken Down by Major Appropriation

                                                                         For the Fiscal Year Ended September 30, 2012


Dollars in Thousands                                                                                                                                                              2012


                                                                                                                                                 Justice Prisoner
                                                                                                                                                    and Alien
                                                                                       Salaries &                                                 Transportation
                                                                                        Expense             Court Security       Construction        System              Total
Budgetary Resources:
    Unobligated Balance, Brought Forward, October 1                                $         45,013     $               9,281    $       2,051   $         34,052    $           90,397

    Recoveries of Prior Year Unpaid Obligations                                              40,651                    11,585              862              1,522                54,620
    Other Changes in Unobligated Balance                                                      (2,568)                  (5,064)             -                  -                  (7,632)
    Unobligated Balance from Prior Year Budget Authority, Net                                83,096                    15,802            2,913             35,574            137,385
    Appropriations (discretionary and mandatory)                                           1,173,002                  422,642           15,000                -             1,610,644
    Spending Authority from Offsetting Collections (discretionary and mandatory)           1,481,021                         -             -               57,593           1,538,614
Total Budgetary Resources                                                          $       2,737,119    $             438,444    $      17,913   $         93,167    $    3,286,643


Status of Budgetary Resources:
    Obligations Incurred                                                                   2,690,482                  425,327           16,983             51,892           3,184,684
    Unobligated Balance, End of Period:
        Apportioned                                                                          14,685                     5,349              687             41,031                61,752
        Unapportioned                                                                        31,952                     7,768              243               244                 40,207
    Total Unobligated Balance - End of Period                                                46,637                    13,117              930             41,275            101,959
Total Status of Budgetary Resources:                                               $       2,737,119    $             438,444    $      17,913   $         93,167    $    3,286,643


Change in Obligated Balance:
    Obligated Balance, Net - Brought Forward, October 1
        Unpaid Obligations, Gross                                                  $        470,165     $             131,550    $      38,260   $          8,635    $       648,610
        Less: Uncollected Customer Payments from Federal Sources                            180,028                          -             -                8,804            188,832
             Total Obligated Balance, Net - Brought Forward, October 1                      290,137                   131,550           38,260               (169)           459,778
    Obligations Incurred                                                                   2,690,482                  425,327           16,983             51,892           3,184,684
    Less: Outlays, Gross                                                                   2,741,897                  425,168           19,035             54,807           3,240,907
    Change in Uncollected Customer Payments from Federal Sources                             28,943                          -             -                 (182)               28,761
    Less: Recoveries of Prior Year Unpaid Obligations                                        40,651                    11,585              862              1,522                54,620


    Obligated Balance, Net - End of Period
        Unpaid Obligations, Gross                                                           378,099                   120,124           35,346              4,198            537,767
        Less: Uncollected Customer Payments from Federal Sources                            151,085                          -             -                8,986            160,071
    Total Obligated Balance, Net - End of Period                                   $        227,014     $             120,124    $      35,346   $         (4,788)   $      377,696


Budgetary Authority and Outlays, Net:
    Budgetary Authority, Gross (discretionary and mandatory)                               2,654,023                  422,642           15,000             57,593           3,149,258
    Less: Actual Offsetting Collections (discretionary and mandatory)                      1,509,960                         -             -               57,411           1,567,371
    Change in Uncollected Customer Payments from Federal Sources                             28,943                          -             -                 (182)               28,761
        (discretionary and mandatory)
    Budget Authority, Net (discretionary and mandatory)                            $       1,173,006    $             422,642    $      15,000   $            -      $    1,610,648


    Outlays, Gross (discretionary and mandatory)                                   $       2,741,897    $             425,168    $      19,035   $         54,807    $      3,240,907
    Less: Actual Offsetting Collections (discretionary and mandatory)                      1,509,960                         -             -               57,411           1,567,371
    Agency Outlays, Net (discretionary and mandatory)                              $       1,231,937    $             425,168    $      19,035   $         (2,604)   $    1,673,536




United States Marshals Service


                                                                                       - 62 -
                                                                                    U.S. Department of Justice

                                                                                   United States Marshals Service

                                                                            Required Supplementary Information

                                                                        Combining Statement of Budgetary Resources

                                                                           Broken Down by Major Appropriation

                                                                        For the Fiscal Year Ended September 30, 2011


Dollars in Thousands                                                                                                                                                            2011


                                                                                                                                                 Justice Prisoner
                                                                                                                                                    and Alien
                                                                                             Salaries &                                           Transportation
                                                                                              Expense         Court Security    Construction          System            Total
Budgetary Resources:
    Unobligated Balance, Brought Forward, October 1                                      $         77,295     $       19,476    $      10,631    $         25,973   $      133,375

    Recoveries of Prior Year Unpaid Obligations                                                    47,890             12,445            2,077               2,407           64,819
    Other Changes in Unobligated Balance                                                            (8,877)          (11,646)            (872)                -            (21,395)
    Unobligated Balance from Prior Year Budget Authority, Net                                     116,308             20,275           11,836              28,380          176,799
    Appropriations (discretionary and mandatory)                                                 1,125,568           407,529           16,592                 -          1,549,689
    Spending Authority from Offsetting Collections (discretionary and mandatory)                 1,530,897               -                -                65,393        1,596,290
Total Budgetary Resources                                                                $      2,772,773     $     427,804     $     28,428     $        93,773    $   3,322,778


Status of Budgetary Resources:
    Obligations Incurred                                                                         2,727,760           418,523           26,377              59,721        3,232,381
    Unobligated Balance, End of Period:
        Apportioned                                                                                19,279              3,964              536              33,951           57,730
        Unapportioned                                                                              25,734              5,317            1,515                101            32,667
    Total Unobligated Balance - End of Period                                                      45,013              9,281            2,051              34,052           90,397
Total Status of Budgetary Resources:                                                     $      2,772,773     $     427,804     $     28,428     $        93,773    $   3,322,778


Change in Obligated Balance:
    Obligated Balance, Net - Brought Forward, October 1
        Unpaid Obligations, Gross                                                        $        527,443     $      132,491    $      34,653    $         13,964   $      708,551
        Less: Uncollected Customer Payments from Federal Sources                                  156,080                -                -                 9,134          165,214
        Total Obligated Balance, Net - Brought Forward, October 1                                 371,363            132,491           34,653               4,830          543,337
    Obligations Incurred                                                                         2,727,760           418,523           26,377              59,721        3,232,381
    Less: Outlays, Gross                                                                         2,737,148           407,018           20,694              62,643        3,227,503
    Change in Uncollected Customer Payments from Federal Sources                                   (23,948)              -                -                  330           (23,618)
    Less: Recoveries of Prior Year Unpaid Obligations                                              47,890             12,445            2,077               2,407           64,819


    Obligated Balance, Net - End of Period
        Unpaid Obligations, Gross                                                                 470,165            131,550           38,260               8,635          648,610
        Less: Uncollected Customer Payments from Federal Sources                                  180,028                -                -                 8,804          188,832
    Total Obligated Balance, Net - End of Period                                         $       290,137      $     131,550     $     38,260     $          (169)   $     459,778


Budgetary Authority and Outlays, Net:
    Budgetary Authority, Gross (discretionary and mandatory)                                     2,656,465           407,529           16,592              65,393        3,145,979
    Less: Actual Offsetting Collections (discretionary and mandatory)                            1,506,949               -                -                65,723        1,572,672
    Change in Uncollected Customer Payments from Federal Sources                                   (23,948)              -                -                  330           (23,618)
        (discretionary and mandatory)
    Budget Authority, Net (discretionary and mandatory)                                  $      1,125,568     $     407,529     $     16,592     $           -      $   1,549,689


    Outlays, Gross (discretionary and mandatory)                                         $       2,737,148    $      407,018    $      20,694    $         62,643   $    3,227,503
    Less: Actual Offsetting Collections (discretionary and mandatory)                            1,506,949               -                -                65,723        1,572,672
    Agency Outlays, Net (discretionary and mandatory)                                    $      1,230,199     $     407,018     $     20,694     $        (3,080)   $   1,654,831




United States Marshals Service

                                                                                       - 63 -
This page left intentionally blank.
	




              - 64 -
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



        OTHER ACCOMPANYING
	
           INFORMATION
	

           (UNAUDITED)
	




               - 65 -
This page left intentionally blank.
	




              - 66 -
                                                U.S. Department of Justice

                                              United States Marshals Service

                                             Combined Schedule of Spending

                                      For the Fiscal Year Ended September 30, 2012





                  Dollars in Thousands                                                    2012

                  What Money is Available to Spend?

                  Total Resources                                                $  3,286,643
                  Less: Amount Available but Not Agreed to be Spent                    61,752
                  Less: Amount Not Available to be Spent                               40,207
                  Total Amounts Agreed to be Spent                               $ 3,184,684




                  How was the Money Spent?
                  Personnel Compensation and Benefits
                                      1100 Personnel Compensation                $     543,780
                                      1200 Personnel Benefits                          227,881
                                      1300 Former Personnel                                150
                  Contractual Services and Supplies
                                      2100 Travel & Transportation of Persons            34,846
                                      2200 Transportation of Things                      22,828
                                      2300 Rent, Communications, and Utilities          218,284
                                      2400 Printing                                         469
                                      2500 Other Services                             2,069,407
                                      2600 Supplies and Materials                        45,078
                  Acquisition of Assets
                                      3100 Equipment/IT Software                       76,425
                                      3200 Leasehold Improvements                       1,759
                  Total Spending                                                    3,240,907
                  Amounts Remaining to be Spent                                  $    (56,223)
                  Total Amounts Agreed to be Spent                               $ 3,184,684




United States Marshals Service

                                                    - 67 -
This page left intentionally blank.
	




              - 68 -
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



            APPENDIX




              - 69 -
This page left intentionally blank.
	




              - 70 -
                                                                  APPENDIX


              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The Office of the Inspector General (OIG) provided a draft of the
Independent Auditors’ Report on Internal Control over Financial Reporting
and the Independent Auditors’ Report on Compliance and Other Matters to
the United States Marshals Service (USMS). The USMS’s response is
incorporated in the Independent Auditors’ Report on Internal Control over
Financial Reporting and the Independent Auditors’ Report on Compliance and
Other Matters of this final report. The following provides the OIG analysis of
the response and summary of actions necessary to close the report.

Recommendation Number:

1.	   Resolved. The USMS concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the USMS has finalized and
      consistently implemented policies and procedures for recording
      obligations and deobligations in a timely manner, and ensured that
      accruals for goods and services provided but not paid for are properly
      calculated, recorded timely, and adequately supported.

2.	   Closed. The status of corrective action related to this recommendation
      will be tracked through Recommendation No. 2 of the FY 2010 Annual
      Financial Statement Audit Report (OIG Report No. 11-10).

3.	   Closed. The status of corrective action related to this recommendation
      will be tracked through Recommendation No. 5 of the FY 2010 Annual
      Financial Statement Audit Report (OIG Report No. 11-10).




                                    - 71 -
